<html>
<title> - LEGISLATIVE HEARING ON H.R. 200, TO DIRECT THE SECRETARY OF THE INTERIOR TO CONDUCT A STUDY OF WATER RESOURCES IN THE RIALTO-COLTON BASIN IN THE STATE OF CALIFORNIA, AND FOR OTHER PURPOSES. ``INLAND EMPIRE PERCHLORATE GROUND WATER PLUME ASSESSMENT ACT OF 2011''; AND H.R. 2842, TO AUTHORIZE ALL BUREAU OF RECLAMATION CONDUIT FACILITIES FOR HYDROPOWER DEVELOPMENT UNDER FEDERAL RECLAMATION LAW, AND FOR OTHER PURPOSES. ``BUREAU OF RECLAMATION SMALL CONDUIT HYDROPOWER DEVELOPMENT AND RURAL JOBS ACT OF 2011.''</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







 H.R. 200, ``INLAND EMPIRE PERCHLORATE GROUND WATER PLUME ASSESSMENT 
 ACT OF 2011''; AND H.R. 2842, ``BUREAU OF RECLAMATION SMALL CONDUIT 
          HYDROPOWER DEVELOPMENT AND RURAL JOBS ACT OF 2011''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                       Wednesday, Sept. 14, 2011

                               __________

                           Serial No. 112-60

                               __________

       Printed for the use of the Committee on Natural Resources





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

68-323 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001















                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                      TOM McCLINTOCK, CA, Chairman
            GRACE F. NAPOLITANO, CA, Ranking Democrat Member

Louie Gohmert, TX                    Raul M. Grijalva, AZ
Jeff Denham, CA                      Jim Costa, CA
Scott R. Tipton, CO                  Ben Ray Lujan, NM
Paul A. Gosar, AZ                    John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD
Doc Hastings, WA, ex officio

                                 ------                                














                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 14, 2011....................     1

Statement of Members:
    Baca, Hon. Joe, a Representative in Congress from the State 
      of California, Oral statement of...........................    10
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     8
        Prepared statement of....................................     9
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California, Oral statement of.................     4
    Tipton, Hon. Scott R., a Representative in Congress from the 
      State of Colorado..........................................     5
        Prepared statement of....................................     7

Statement of Witnesses:
    Lynch, Robert S., Attorney, Robert S. Lynch & Associates, 
      Phoenix, Arizona...........................................    16
        Prepared statement on H.R. 2842..........................    17
    Murillo, David, Deputy Commissioner of Operations, Bureau of 
      Reclamation, U.S. Department of the Interior, Washington, 
      D.C........................................................    12
        Prepared statement on H.R. 2842 and H.R. 200.............    14
    Scott, Hon. Ed, Mayor Pro Tem, City of Rialto, California....    31
        Prepared statement on H.R. 200...........................    33
    Treese, Christopher J., Manager, External Affairs, Colorado 
      River Water Conservation District, on behalf of The Family 
      Farm Alliance, Glenwood Springs, Colorado..................    18
        Prepared statement on H.R. 2842..........................    19
    Ward, Grant R., Water and Power Consultant, Maricopa-
      Stanfield Irrigation and Drainage District and Electrical 
      District No. 3, Maricopa, Arizona..........................    22
        Prepared statement on H.R. 2842..........................    23
    Werkheiser, William, Associate Director, Water, U.S. 
      Geological Survey, Reston, Virginia, Statement submitted 
      for the record by USGS.....................................    39
                                     


 
    LEGISLATIVE HEARING ON H.R. 200, TO DIRECT THE SECRETARY OF THE 
  INTERIOR TO CONDUCT A STUDY OF WATER RESOURCES IN THE RIALTO-COLTON 
  BASIN IN THE STATE OF CALIFORNIA, AND FOR OTHER PURPOSES. ``INLAND 
  EMPIRE PERCHLORATE GROUND WATER PLUME ASSESSMENT ACT OF 2011''; AND 
 H.R. 2842, TO AUTHORIZE ALL BUREAU OF RECLAMATION CONDUIT FACILITIES 
FOR HYDROPOWER DEVELOPMENT UNDER FEDERAL RECLAMATION LAW, AND FOR OTHER 
PURPOSES. ``BUREAU OF RECLAMATION SMALL CONDUIT HYDROPOWER DEVELOPMENT 
                     AND RURAL JOBS ACT OF 2011.''

                              ----------                              


                     Wednesday, September 14, 2011

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:01 p.m. in 
Room 1324, Longworth House Office Building, Hon. Tom McClintock 
[Chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Tipton, Gosar, 
Labrador, Napolitano, and Garamendi.
    Also Present: Representative Baca.
    Mr. McClintock. The Subcommittee on Water and Power will 
come to order. The House has scheduled a vote sometime in the 
next 15 or 20 minutes. So we are going to try to plow through 
opening statements.
    We will have to break. I am told it is a single vote that 
will be taken, and then we will come back to hear from 
witnesses. We meet today to hear testimony on H.R. 2842 by Mr. 
Tipton, and H.R. 200 by Mr. Baca.
    Without objection, Mr. Baca will sit on the Committee 
today, and is on his way. We will begin with five minute 
opening statements, and I would like to welcome you all today.

STATEMENT OF HON. TOM McCLINTOCK, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. McClintock. As I said, the principal focus of today's 
hearing is to examine obstacles that the Federal Government has 
placed in the way of developing clean, cheap, abundant, and 
reliable hydropower through small generators on existing canals 
and pipelines.
    Earlier this year, this Subcommittee heard dramatic 
testimony that we could add the equivalent of one large 
hydropower dam in a single State simply by placing small 
generators into existing Federal conduits.
    But we learned the reason this isn't happening is solely 
because Federal regulations have made it economically 
infeasible to do so. We heard that endless regulatory delays 
and exorbitant permitting fees literally double the cost of 
these projects, making them cost prohibitive.
    I want to commend our Subcommittee Members, Scott Tipton 
and Paul Gosar, who are spearheading the effort to clear away 
these bureaucratic obstacles that stand between this Nation, 
and literally thousands, if not tens of thousands, of megawatts 
of clean, cheap, abundant, and reliable hydroelectricity, and 
all of the jobs and prosperity they could produce.
    It is truly mystifying that a nation suffering a prolonged 
recession, and plagued with increasingly scarce and expensive 
electricity, would adopt a willful and deliberate policy of 
obstructing construction of these inexpensive and innocuous 
generators in existing facilities.
    I mean, think about the implications to farming is just one 
example. Some irrigation districts are forced to use diesel 
generators to pump water to the fields. Put these hydroelectric 
generators in existing canals and pipes, and they become 
virtually self-sustaining, while reducing air emissions.
    In addition, sales of canal based electricity could 
generate local revenue for irrigators, which would help upgrade 
aging infrastructure, and create jobs, while relieving 
exhausted Federal taxpayers of these costs.
    And yet we have received volumes of testimony telling of 
how the government smothers applications with endless delays to 
study the environmental impact of adding generators to existing 
facilities where there are no fish, fowl, or flora of any kind.
    This simple and commonsense solution means vast quantities 
of hydroelectricity, without a single new dam, and at a cost to 
the government of precisely nothing. That means more jobs, 
cheaper and cleaner electricity, reduced reliance on fossil 
fuels, and less reliance on foreign sources of energy.
    That is what this Administration is currently blocking, 
while all assuring us that they are really very sympathetic of 
this cause. All they have to do is get out of the way, and that 
is the one thing they won't do.
    There is no environmental protection added by subjecting 
these simple installations to a costly and comprehensive NEPA 
review process. The canals and water delivery pipes are already 
off-river. They are utterly devoid of any species, endangered 
or otherwise.
    Even FERC, a bastion of regulatory excess, agrees that 
these studies are necessary on similar non-Federal facilities. 
Our Nation desperately needs affordable electricity, and it 
desperately needs permanent jobs.
    But to get them, it most of all desperately needs 
commonsense restored to its government. Congressman Tipton's 
bill does so by providing a comprehensive authorization for the 
placement of these small hydroelectric generators in existing 
Bureau of Reclamation conduits.
    It invites existing operators and users to invest in these 
generators at no public cost. It provides a streamlined, one-
stop, permitting office within the Bureau of Reclamation to 
expedite these projects, and it exempts the installation of 
generators from the costly, time consuming, and pointless NEPA 
process where there is no conceivable environmental impact 
involved.
    Let there be no mistake about the significance of this 
measure. At zero public expense, it has the potential to add 
the equivalent electricity of dozens of major hydroelectric 
dams all around the country.
    Our second bill by Congressman Joe Baca has been heard and 
approved by this Subcommittee on a bipartisan vote in the One 
Hundred and Eleventh Congress. It is a well-intentioned effort 
to pressure the Administration to produce a long overdue 
perchlorate study in the Inland Empire of California arising 
from the manufacturing activities of Federal contractors.
    A week ago, the President spoke about the need for more 
jobs. But yet somehow it does not appear that memo was received 
by the Interior Department that is still intent on producing 
full employment for bureaucrats at the expense of our Nation's 
prosperity and energy independence.
    The public has had a bellyful of this nonsense, and it is 
now time for us to act, and with that, I will yield five 
minutes to the Gentlelady from California, the Ranking Member 
of the Subcommittee on Water and Power.
    [The prepared statement of Mr. McClintock follows:]

         Statement of The Honorable Tom McClintock, Chairman, 
       Subcommittee on Water and Power, on H.R. 200 and H.R. 2842

    The principal focus of today's hearing is to examine obstacles that 
the federal government has placed in the way of developing clean, 
cheap, abundant and reliable hydropower through small generators on 
existing canals and pipelines.
    Earlier this year, this subcommittee heard dramatic testimony that 
in one western state alone, we could add the equivalent of one large 
hydropower dam simply by placing small generators into existing federal 
conduits. But, we learned, the reason this isn't happening is solely 
because federal regulations have made it economically infeasible to do 
so. We heard that endless regulatory delays and exorbitant permitting 
fees literally double the cost of these projects, making them cost-
prohibitive.
    I want to commend our sub-committee members Scott Tipton and Paul 
Gosar who are spearheading the effort to clear away these bureaucratic 
obstacles that stand between this nation and literally thousands--if 
not tens of thousands--of megawatts of clean, cheap, abundant and 
reliable hydroelectricity--and all the jobs and prosperity they could 
produce.
    It is truly mystifying that a nation suffering a prolonged 
recession and plagued with increasingly scarce and expensive 
electricity would adopt a willful and deliberate policy of obstructing 
construction of these inexpensive and innocuous generators in existing 
facilities.
    Think about the implications to farming, as just one example. Some 
irrigation districts are forced to use diesel generators to pump water 
to the fields. Put hydroelectric generators in existing canals and 
pipes and they become virtually self-sustaining while reducing air 
emissions. In addition, sales of canal-based electricity could generate 
local revenue for irrigators, which would help upgrade aging 
infrastructure and create jobs while relieving exhausted federal 
taxpayers of those costs.
    And yet we have received volumes of testimony telling of how the 
government smothers applications with endless delays to study the 
environmental impact of adding generators to existing facilities where 
there are no fish, foul, or flora of any kind.
    This simple and commonsense solution means vast quantities of 
hydroelectricity--without a single new dam and at a cost to the 
government of precisely nothing. That means more jobs, cheaper and 
cleaner electricity, reduced reliance on fossil fuels and less reliance 
on foreign sources of energy--that's what this administration is 
currently blocking. All they have to do is get out of the way. But they 
won't.
    There's no environmental protection added by subjecting these 
simple installations to a costly and comprehensive NEPA review process. 
The canals and water delivery pipes are already off-river. They are 
utterly devoid of any species--endangered or otherwise. Even FERC, a 
bastion of regulatory excess, agrees that these studies are unnecessary 
on similar non-federal facilities.
    Our nation desperately needs affordable electricity, it desperately 
needs permanent jobs but to get them, it most of all desperately needs 
commonsense restored to its government.
    Mr. Tipton's bill does so by providing a comprehensive 
authorization for the placement of these small hydro-electric 
generators in existing Bureau of Reclamation conduits, it invites 
existing operators and users to invest in these generators at no public 
cost and it exempts the installation of generators from the costly, 
time-consuming and pointless NEPA process when there is no conceivable 
environmental impact involved.
    Let there be no mistake about the significance of this measure: at 
zero public expense, it has the potential to add the equivalent 
electricity of dozens of Glen Canyon-sized dams around the country.
    Our second bill by Congressman Joe Baca, has been heard and 
approved by this sub-committee on a bipartisan vote in the 111th 
Congress. It is a well-intentioned effort to pressure the 
Administration to produce a long-overdue perchlorate study in the 
Inland Empire of California arising from the manufacturing activities 
of federal contractors.
    A week ago, the President spoke about the need for more jobs, yet 
somehow that memo wasn't read by an Interior Department still intent on 
providing full employment for bureaucrats at the expense our nation's 
prosperity and energy independence.
    The public has had a belly full of this nonsense and it is time for 
us to act.
                                 ______
                                 

    STATEMENT OF HON. GRACE NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chair. Both pieces of 
legislation can focus on the need to maximize our water and 
power resources. H.R. 200 authorizes the study of contaminated 
and impaired ground water in the Rialto-Colton Basin, and I am 
going to say that we have many impaired water basins in our 
area in Southern California. This is just another one that has 
been more to the forefront and identified.
    H.R. 2842 allows for the development of hydropower at 
existing canal facilities, something that we have been pushing 
for now for a number of years. Water is an important factor in 
our economy, and in the Inland Empire water constitutes about 
79 percent of the drinking water supply.
    H.R. 200 seeks to understand the extent of the perchlorate 
contamination of the basin, and help isolate the problem, and 
prevent this problem from spreading to other areas. Water 
contamination knows no boundaries. It does not know any 
political parties, and we must prevent the migration of 
contamination to other ground water resources.
    H.R. 2842 looks to increase hydropower, the development of 
conduit in canal hydropower. There is lots of new technology 
that has evolved, and we think that we need to be able to 
ensure that we continue to look for ways to use to not only 
save funding money that could be otherwise used in other areas 
in developing the electricity.
    We do support H.R. 2842 and its general intent of 
increasing generation of existing facilities, but we also 
believe that this can be done without disregarding 
environmental protections. There has got to be a win-win for 
both.
    Proponents for this national environment policy, that is, 
NEPA, the waiver, we will argue that this is regulatory red 
tape that is preventing the development of more hydropower.
    The stopgap for development is not NEPA. There must be a 
clear process in place for the development of hydropower at 
Reclamation facilities. Developers are looking for clarity and 
certainty that the project can be de developed.
    Waiving NEPA will not provide clarity and certainty, 
especially the protection for those folks that live nearby, or 
that are affected by those processes. A clear Lease of Power 
Privilege process will.
    Deputy Commissioner Murillo, Reclamation must develop a 
clear, safe, and fast process for development of hydropower at 
Reclamation facilities. Thank you, witnesses, for traveling 
here, and for your testimony, and we look forward to working 
with all of you in the future on these great issues that affect 
our Western area. Thank you.
    Mr. McClintock. It is customary for the Subcommittee to 
recognize opening statements by those Members that wish to make 
them, and the Chair now recognizes Mr. Tipton for five minutes.

 STATEMENT OF HON. SCOTT TIPTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Tipton. Thank you, Mr. Chairman, for convening today's 
hearing, and I would like to thank all of our witnesses for 
being here today, and particularly Chris Treese from Glenwood 
Springs, Colorado, for coming here to share his expertise.
    At a time when our country needs to focus on domestic 
energy production and job creation, hydropower can play a 
critical role in providing clean renewable energy, while 
expanding job opportunities in America.
    Hydropower is the cheapest and cleanest source of 
electricity available through modern technology. It is the 
highest source of noncarbon emitting energy in the world, and 
accounts for approximately 75 percent of the United States' 
total renewable electricity generation, making it the leading 
renewable energy source of power.
    Canal-based hydropower can produce up to 1400 megawatts of 
power in Colorado alone. This is the equivalent of the power 
produced by the Glen Canyon Dam. Many rural water and 
irrigation districts, and electrical utilities in Colorado and 
other Western States, seek to develop hydropower on Bureau of 
Reclamation water canals and pipelines.
    But overburdensome and unnecessary regulations stand in the 
way. Increased conduit hydropower serves a number of purposes. 
It produces renewable and emissions free energy that can be 
used to pump water or to sell electricity to the grid.
    It can generate revenue for the hydropower developer to 
help pay for the aging infrastructure costs, and water power 
facility modernization, and it can create local jobs and 
generate revenue to the Federal Government.
    One thing stands in the way of such commonsense 
development, outdated and unnecessary Federal regulations. H.R. 
795, introduced in the House by Congressman Adrian Smith and 
Jim Costa, provides regulatory reform for non-Federal conduit 
hydropower generation.
    And I believe that it is time to begin to reform hydropower 
development on the Federal conduits as well. As it stands, 
Federal regulations hinder this development on Federal projects 
and subject job creators to unnecessary requirements, which 
render all small hydropower projects virtually unfeasible.
    For this reason, I recently introduced H.R. 2842, the 
Bureau of Reclamation's Small Conduit Hydropower Development 
and Rural Jobs Act of 2011. This legislation authorizes power 
development at the Agency's conduits to clear up multi-agency 
infusion, and duplicative processes, and reduces the regulatory 
costs associated with hydropower development.
    This legislation seeks to remove one major economic 
handcuff, unnecessary environmental analysis. Even though 
Reclamation conduit hydropower units already would be on 
disturbed ground within existing facilities that have already 
gone through Federal environmental review, another National 
Environmental Policy Act analysis must still be done in this 
case under existing regulations.
    This is done despite the fact that the Interior 
Department's current Reclamation manual allows for NEPA 
categorical exclusions for minor construction activities 
associated with authorized projects, which merely augment, or 
supplement, or are enclosed within existing facilities.
    The legislation also substantially reduces administrative 
costs so that the projects are no longer cost prohibitive. 
Instead of the current process where Reclamation must 
painstakingly analyze each and every proposal for development, 
the bill gives the first development right to the entity or 
entities operating and maintaining a Federal conduit.
    Most Reclamation irrigation and water supply projects have 
an arrangement whereby operation of maintenance activities are 
transferred to the local beneficiary as a way to be able to 
reduce paperwork and other costs.
    The rationale for the legislation's first right of refusal 
provision is that the non-Federal operator knows the details of 
the facility, and is locally invested in the project. This 
provision would significantly decrease conduit hydropower 
planning costs.
    The hydropower development encouraged by this legislation 
will not harm the environment since the generation units would 
be placed on already disturbed ground within existing 
facilities that have already gone through Federal environmental 
review.
    The bill also protects water users by specifically 
reaffirming hydropower development as a secondary to water 
supply and delivery purposes, and ensuring that there will be 
no financial or operational impacts to existing water and power 
users.
    Furthermore, the bill protects agreements that water users 
have on existing conduit generation projects, and provides 
additional safeguards to ensure that such projects do not 
undermine water deliveries.
    I am proud to have the support of the Family Farm Alliance, 
and National Water Resources Association, and the American 
Public Power Association, among others. If enacted, this 
legislation will streamline the regulatory process, and reduced 
administrative costs for small hydropower development for 
Reclamation facilities, while supporting the creation of badly 
needed rural jobs. Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Mr. Tipton follows:]

    Statement of The Honorable Scott R. Tipton, a Representative in 
           Congress from the State of Colorado, on H.R. 2842

    Thank you Mr. Chairman for convening today's hearing on my bill, 
H.R. 2842. I also want to thank out witnesses for being here today, and 
I particularly want to welcome Chris Treese from Glenwood Springs, 
Colorado for sharing his expertise in this area
    At a time when our country needs to focus on domestic energy 
production and job creation, hydropower can play a critical role in 
providing clean renewable energy while expanding job opportunities in 
rural America.
    Hydropower is the cheapest and cleanest source of electricity 
available through modern technology. It's the highest source of non-
carbon emitting energy in the world and accounts for approximately 75% 
of the United States' total renewable electricity generation, making it 
the leading renewable energy source of power. Canal based hydropower 
can produce up to 1400mw of power in Colorado alone. This is the 
equivalent of the power produced by the Glen Canyon Dam.
    Many rural water and irrigation districts and electric utilities in 
Colorado and other western states seek to develop hydropower on Bureau 
of Reclamation water canals and pipelines, but over-burdensome and 
unnecessary regulations stand in the way. Increased conduit hydropower 
serves a number of purposes: it produces renewable and emissions-free 
energy that can be used to pump water or sell electricity to the grid; 
it can generate revenue for the hydropower developer to help pay for 
aging infrastructure costs and water/power facility modernization; and 
it can create local jobs and generate revenue to the federal 
government.
    One thing stands in the way of such common-sense development: 
outdated and unnecessary federal regulations. H.R. 795, introduced in 
the House of Representatives by Congressman Adrian Smith and Jim Costa, 
provides regulatory reform for non-federal conduit hydropower 
generation, and I believe it's time to begin reform for hydropower 
development on federal conduits as well.
    As it stands, federal regulations hinder this development on 
federal projects and subject job creators to unnecessary requirements 
which render small hydropower projects economically unfeasible. For 
this reason, I recently introduced H.R. 2842, The Bureau of Reclamation 
Small Conduit Hydropower Development and Rural Jobs Act of 2011. This 
legislation authorizes power development at the agency's conduits to 
clear up multi-agency confusion and duplicative processes and reduces 
the regulatory costs associated with hydropower development.
    This legislation seeks to remove one major economic handcuff: 
unnecessary environmental analysis. Even though Reclamation conduit 
hydropower units would already be on disturbed ground within existing 
facilities that have already gone through federal environmental review, 
another National Environmental Policy Act (NEPA) analysis must still be 
done in this case under existing regulations. This is done despite the 
fact that the Interior Department's current Reclamation Manual allows 
for NEPA categorical exclusions for ``Minor construction activities 
associated with authorized projects. . .which merely augment or 
supplement, or are enclosed within existing facilities.''
    The legislation also substantially reduces administrative costs so 
that the projects are no longer cost prohibitive. Instead of the 
current process where Reclamation must painstakingly analyze each and 
every proposal for development, the bill gives the first development 
right to the entity/entities operating and maintaining the federal 
conduit. Most Reclamation irrigation and water supply projects have an 
arrangement where operation and maintenance activities are transferred 
to the local beneficiary as a way to reduce paperwork and other costs. 
The rationale for the legislation's first right of refusal provision is 
that the non-federal operator knows the details of the facility and is 
locally invested into the project. This provision would significantly 
decrease conduit hydropower planning costs.
    The hydropower development encouraged by this legislation will not 
harm the environment since the generation units would be placed on 
already disturbed ground within existing facilities that have already 
gone through federal environmental review. The bill also protects water 
users by specifically re-affirming hydropower development as secondary 
to water supply and delivery purposes and ensuring that there will be 
no financial and operational impacts to existing water and power users. 
Furthermore, the bill protects agreements that the water users have on 
existing conduit generation projects and provides additional safeguards 
to ensure such projects do not undermine water deliveries.
    I'm proud to have the support of the Family Farm Alliance, the 
National Water Resources Association, and the American Public Power 
Association, among others. If enacted, this legislation will streamline 
the regulatory process and reduce administrative costs for small 
hydropower development at Reclamation's facilities while supporting the 
creation of badly needed rural jobs.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. McClintock. Thank you, Mr. Tipton. The Chair now 
recognizes Mr. Gosar for an opening statement for five minutes.

STATEMENT OF HON. PAUL GOSAR, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ARIZONA

    Dr. Gosar. Thank you, Chairman. First, I would like to 
acknowledge Mr. Lynch and Mr. Ward, some of the true workhorses 
in water policies out of Arizona for coming up, and thank you, 
Chairman McClintock, for holding this legislative hearing on 
the Bureau of Reclamation's Small Conduit Hydropower 
Development and Rural Jobs Act of 2011.
    H.R. 2842 is important legislation that will restore 
commonsense to Federal regulations, and ultimately lead to the 
expansion of clean hydropower production at the Bureau of 
Reclamation facilities in Arizona and across the country.
    My district, Arizona's Congressional First District, is 
home to some of the country's most important large scale 
multipurpose hydroelectric power generation infrastructure, 
such as the Glen Canyon Dam.
    The Committee has spent a significant portion of its time 
examining excessive and burdensome Federal policies and 
regulations that are handicapping this infrastructure, and in 
some cases even threatening its livelihood.
    These types of nonsensical regulations create man-made 
shortages, which in turn lead to higher unemployment, and 
increased water, energy, and food prices, and unnecessary 
taxpayer spending.
    Unfortunately, it is not just our existing hydroelectric 
infrastructure that is hamstrung by excessive regulation. Our 
country is failing to fully tap its hydroelectric power 
generation potential.
    However, this failure is not due to the desire to develop 
these resources. This Committee is going to hear from two 
Arizonans today that will say that the potential and the 
willingness in my State is there.
    It is simply the failure of the Federal policies to 
facilitate an environment that is conducive to this type of 
development. Instead of working with communities of interest, 
the Federal Government is dictating to them, which has proven 
to be counterproductive.
    Chairman McClintock should be commended for his commitment 
to bringing legislation before this Committee to address this 
failure of Federal policy. A couple of months ago the House 
Natural Resources Committee unanimously passed H.R. 795, the 
Small Scale Hydropower Enhancement Act of 2011, legislation 
that I co-sponsored, that restores commonsense and rationality 
to Federal policy related to small scale hydroelectric power 
generation by removing bureaucratic paperwork that are making 
it too costly to install small facilities and water systems 
across rural Arizona.
    Today we are examining equally important legislation, 
legislation aimed at increasing clean hydropower generation, 
further diversifying the country's renewable energy portfolio, 
and creating jobs via the expansion of production at the Bureau 
of Reclamation facilities.
    The Bureau of Reclamation's Small Conduit Hydropower 
Development Rural Jobs Act of 2011, the H.R. 2842 legislation 
of Representative Tipton, is another step restoring sanity to 
our Federal policies.
    In light of how important this is in my district and my 
State, I was proud to join Mr. Tipton on this bill. This bill 
authorizes more hydropower development in Federal canals and 
pipelines, and eliminates unnecessary paperwork associated with 
the National Environmental Policy Act, while allowing for 
environmental protection, and empowers the hardworking 
irrigators to develop conduit hydropower generation on the 
facilities that they already operate and maintain on behalf of 
the Federal Government.
    Once again, I appreciate Chairman McClintock's commitment 
to examining and ultimately pushing an aggressive legislative 
agenda in this Subcommittee that will halt the endless 
litigation and regulation that inflates the price of water in 
my State, and across the West.
    I am committed as a Representative of a rural district that 
struggles in-part because of the potential for these types of 
projects is stifled by unnecessary regulatory requirements and 
burdensome administrative costs.
    I would hope that this commonsense legislation aimed at 
eliminating bureaucratic red tape would garner strong 
bipartisan support, much like did H.R. 795. Hydropower is a 
low-cost, clean, renewable, emissions free source of energy 
that provides low-cost electricity, and helps reduce carbon 
emissions.
    It is an integral component of a long term energy plan for 
my State and the Nation. We must protect our existing 
hydropower infrastructure and find ways like the legislation 
before us to expand smaller scale hydroelectric power 
generation.
    I look forward to continuing to work with Congressman 
Tipton to ensure H.R. 2842's passage in the House of 
Representatives. Mr. Chairman, I yield back the balance of my 
time.
    [The prepared statement of Dr. Gosar follows:]

Statement of The Honorable Paul A. Gosar, a Representative in Congress 
                from the State of Arizona, on H.R. 2842

    First, thank you to Chairman McClintock for holding this 
legislative hearing on the Bureau of Reclamation Small Conduit 
Hydropower Development and Rural Jobs Act of 2011. H.R. 2842 is 
important legislation that will restore common-sense to federal 
regulations and ultimately lead to the expansion of clean, hydropower 
production at Bureau of Reclamation facilities in Arizona and across 
the country.
    My district, Arizona's First Congressional District, is home to 
some of the country's most important large-scale multipurpose 
hydroelectric power generation infrastructure, such as the Glen Canyon 
Dam. The committee has spent a significant portion of its time 
examining excessive and burdensome federal policies and regulations 
that are handicapping this infrastructure, and in some cases, even 
threatening its livelihood. These types of nonsensical regulations 
create man-made shortages, which in turn lead to high unemployment and 
increased water, energy, and food prices and unnecessary taxpayer 
spending.
    Unfortunately, it is not just our existing hydroelectric 
infrastructure that is hamstrung by excessive regulation. Our country 
is failing to fully tap its hydroelectric power generation potential. 
However, this failure is not due to the desire to develop these 
resources; this committee is going to hear from two Arizonans today 
that will say the potential and willingness in my state is there. It is 
simply the failure of federal policies to facilitate an environment 
that is conducive to this type of development. Instead of working with 
communities of interest, the federal government is dictating to them, 
which has proven to be counterproductive.
    Chairman McClintock should be commended for his commitment to 
bringing legislation before this committee to address this failure of 
federal policy. A couple months ago, the House Natural Resources 
Committee unanimously passed H.R. 795 the Small-Scale Hydropower 
Enhancement Act of 2011, legislation I cosponsored that restoring 
common-sense and rationality to federal policy related to small-scale 
hydroelectric power generation, by removing bureaucratic-paperwork that 
are making it too costly to install small facilities in water systems 
across rural Arizona.
    Today, we are examining equally important legislation; legislation 
aimed at increasing clean hydropower generation, further diversifying 
the country's renewable energy portfolio, and creating local jobs via 
the expansion of production at Bureau of Reclamation facilities.
    The Bureau of Reclamation Small Conduit Hydropower Development and 
Rural Jobs Act of 2011, H.R. 2842, legislation Representative Tipton 
introduced, is another step restoring sanity to our federal policies. 
In light of how important this is to my district and my state, I was 
proud to join Mr. Tipton on this bill.
    This bill authorizes more hydropower development at federal canals 
and pipelines, eliminates unnecessary paperwork associated with the 
National Environmental Policy Act while allowing for environmental 
protection and empowers the hard-working irrigators to develop conduit 
hydropower generation on facilities they already operate and maintain 
on behalf of the federal government.
    Again I appreciate Chairman McClintock's commitment to examining 
and ultimately pushing an aggressive legislative agenda in this 
subcommittee that will halt the endless litigation and regulation that 
inflates the price of water and power in my state and across the West. 
I am committed, as a representative of a rural district that struggles, 
in part because the potential for these types of projects is stifled by 
unnecessary regulatory requirements and burdensome administrative 
costs. I would hope this common-sense legislation aimed at eliminating 
bureaucratic red tape would garner strong bipartisan support, much like 
H.R. 795.
    Hydropower is a low cost, renewable, and emissions-free source of 
energy that provides low-cost electricity. It is an integral component 
of the long-term energy plan for my state and the nation. We must 
protect our existing hydropower infrastructure and find ways, like the 
legislation before us to expand smaller scale hydroelectric power 
generation. I look forward to continuing to work with Congressman 
Tipton to ensure the passage of H.R. 2842 in the U.S. House of 
Representatives.
                                 ______
                                 
    Mr. McClintock. Thank you. The Chair recognizes Mr. Baca 
for an opening statement for five minutes.

STATEMENT OF HON. JOSEPH N. BACA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Baca. Thank you very much, Mr. Chairman, Tom 
McClintock, and Ranking Member Grace Napolitano, and thank you 
for allowing me to speak, even though my panel will be the next 
one up.
    I also want to thank our witnesses and give a special 
thanks to our City Council Member and Mayor Pro Tem, Ed Scott, 
for being here today. He has worked hard on this issue, and is 
a member of the Perchlorate Task Force in the City of Rialto.
    H.R. 200 directs the United States Geological Survey, USGS, 
to conduct a study, and I state to conduct a study, of water 
resources in the Rialto-Colton Basin in California. Not only is 
that study there, but it will also impact others throughout the 
United States, too, as well.
    Last year, Congress had introduced this legislation, which 
was H.R. 4252, and this bill passed out of the Natural 
Resources Committee, and was unanimously approved by the House 
in March of 2010. That means that it received bipartisan 
support, not only out of this Committee, but also the House as 
a whole.
    H.R. 4252 was approved by the Senate Committee as well on 
Energy and Natural Resources on a bipartisan fashion as well in 
July of 2010. Unfortunately, the bill did not come to the Floor 
of the Senate before the One-Hundred-and-Eleventh Congress came 
to an end.
    So I hope this year that we will be able to have bipartisan 
support, get it out of here, and get it into the Senate, and 
hopefully get it on to the Floor, because it is important for 
all of us that we work jointly together on something that is 
going to impact a lot of us.
    That is why I have reintroduced this legislation because I 
am deeply concerned about the well-being of families, not only 
in the Inland Empire, but throughout the State of California, 
and other portions of the State.
    And having lived in Rialto for a decade, I am aware of the 
perchlorate contamination problem we have in our drinking 
water. That is why I have the blue here when I have clear 
water. You know that? This little pina here. I wanted it to be 
clean and good, because perchlorate is like a rocket additive.
    It is an unstable organic compound that is found to be 
harmful for humans, and I state for humans, because it 
interferes with the thyroid functions, and many individuals in 
the City of Rialto, and Fontana, or surrounding areas, are even 
afraid to drink that water, and don't drink that water, and end 
up having to purchase water because they are also concerned 
with the effects it has--and especially on pregnant women and 
infants--in the area.
    The EPA plans to use $18 million for a treatment system to 
clean the water in the Rialto-Colton Basin. This basin is the 
primary source of perchlorate contamination in the area.
    I applaud the EPA for this effort, but I have concerns that 
the USGS has not conducted--and I state has not conducted--an 
in-depth analysis of the perchlorate plume in this basin, 
because when we allow it to flow from not only the Inland 
Empire, it goes through the Santa Ana River, and into Orange 
County, affecting that area as well.
    For the efforts of the EPA and other agencies to be 
ultimately successful, we must know the full scope of the 
problem. The people in my district are hurting. The Inland 
Empire ranks fifth nationally in the rate of home foreclosure.
    Unemployment in San Bernardino County is about 14.7 
percent, and 24 percent of children in the county live in 
households that are below the Federal poverty level that can't 
do anything, that can't buy water, and yet rely on the water in 
that area.
    Now, according to the EPA, the contamination at the Rialto 
site is measured at more than 1,000 times the drinking water 
standard. My constituents deserve to have clean water, and I 
say clean water for themselves, their families, and future 
generations, along with others that would be impacted.
    They have already shouldered too much of the costs to fix 
this problem. They need help. Since 2001, families in Rialto 
have paid a $12 monthly surcharge, and that is an awful lot to 
even pay, a $12 surcharge, on water bills to cover the costs of 
the exchange for treatment process.
    According to the USGS ground water makes up about 79 
percent of the available drinking water supply in the Inland 
Empire, and in the Inland Empire, I am sorry to say, are all 
working jointly together, because I am the only Democrat, 
surrounded by seven Republicans, and they all support this as 
well, which is nice, you know.
    The contamination is spreading all over to other areas that 
may suffer. The USGS study would benefit all areas struggling 
with unsafe drinking water. It would help better understand the 
nature of perchlorate contamination.
    The City of Rialto has done what it can to protect those 
who are most vulnerable to perchlorate contamination. I want to 
commend the Rialto Perchlorate Task Force, led by Council 
Member Ed Scott and Joe Baca, Junior, for their efforts on the 
perchlorate.
    And with that, Mr. Chairman, I look forward to bipartisan 
support in doing what we did last year in getting it out of 
this House, and getting it into the Senate, and ultimately 
getting it to the Floor on the Senate side. Thank you very much 
for allowing me to say a few words. I yield back whatever time 
I didn't have.
    Mr. McClintock. We will dock you 39 seconds on the next 
round. Mr. Garamendi, do you wish to make an opening statement?
    Mr. Garamendi. No, thank you.
    Mr. McClintock. Then we will plow right ahead with our 
first panel, who is here to provide testimony on H.R. 2842 by 
Congressman Tipton. The Committee is pleased to welcome first 
Mr. David Murillo, Deputy Commissioner and Director of 
Operations for the U.S. Bureau of Reclamation, for five 
minutes.

STATEMENT OF DAVID MURILLO, DEPUTY COMMISSIONER AND DIRECTOR OF 
 OPERATIONS, UNITED STATES BUREAU OF RECLAMATION, WASHINGTON, 
                              D.C.

    Mr. Murillo. Thank you, Mr. Chairman. Chairman McClintock, 
and Members of the Subcommittee, I am David Murillo, Deputy 
Commissioner of Operations at the Bureau of Reclamation. I am 
pleased to provide the Department of the Interior's views on 
H.R. 2842, the Bureau of Reclamation's Small Conduit Hydropower 
Development and Rural Jobs Act of 2011.
    I am happy to introduce Bill Werkheiser, USGS Associate 
Director for Water, who is prepared to respond to any technical 
questions on H.R. 200, the Inland Empire Perchlorate Ground 
Water Plume Assessment Act of 2011.
    The USGS has the capability to complete a two year study to 
address the issues of concern presented in H.R. 200 for the 
Rialto-Colton Basin. The Department notes, however, that the 
activities called for in H.R. 200 are already authorized by 
existing authorities.
    Any study conducted to fulfill the objectives of the bill, 
are like the objectives that would be needed to compete for 
funding with other administrative priorities. My written 
statement has been submitted for the record, and I will 
summarize it here.
    The Department supports the goals of H.R. 2842, which aims 
to increase the generation of hydropower in existing canals and 
conduits. My statement will summarize the areas where the 
Administration supports the objectives of H.R. 2842, as well as 
discuss where we believe improvements could be made.
    H.R. 2842 would clarify that Reclamation is responsible for 
authorizing conduit hydropower development and on Reclamation-
owned facilities through the Lease of Power Privilege through 
LOPP contracts.
    As the Subcommittee knows, hydropower units added to water 
projects are either permitted by Reclamation or FERC, depending 
on jurisdiction. Reclamation and FERC continue to work together 
to improve the process of establishing jurisdiction, and we 
understand the intent of this bill to settle that question.
    Section II of H.R. 2842 would also require the Reclamation 
offer preference in the award of LOPPs to irrigation districts 
or water users associations, with Reclamation having an 
existing contract for operations and maintenance.
    Reclamation already provides preference to existing 
irrigation districts and water user associations pursuant to 
the Reclamation Project Act of 1939. Additionally, Section II 
of H.R. 2842 would provide that NEPA shall not apply to small 
conduit hydropower development, excluding siting of associated 
transmission on Federal lands.
    This language is in contrast to the existing provisions of 
the Federal Power Act that allows FERC to approve an 
application to develop hydropower within conduits located on 
non-Federal lands, but only subject to certain conditions.
    H.R. 2842 has no such conditions. The Department's view is 
that low impact hydropower can be efficiently by using existing 
environmental reviews, without unduly delaying project 
development.
    The Department believes that environmental protections 
should continue to apply in the context of new construction 
undertaken on Federal lands, and will continue to apply NEPA 
through the use of categorical exclusions or environmental 
assessments.
    The Department understands the importance of expedient 
environment review and believes that the development of 
hydropower within Reclamation's existing conduits and canals 
can be officially analyzed utilizing these existing review 
processes.
    I would also like to address concerns raised by language in 
Section II specifying that the Power Resources Office of the 
Bureau of Reclamation shall be the lead office of small conduit 
hydropower activities conducted under this subsection.
    Project specific expertise recites first at the field 
level, where ownership responsibilities for the specific 
infrastructure resides. It is preferable for developers to 
approach the appropriate Reclamation regional area office with 
proposals to develop conduit hydropower, and contact the power 
resources offices needed.
    Finally, H.R. 2842 would amend 9[c] of the Reclamation 
Project Act of 1939, which in addition to providing LOPP 
authority, authorizes the Secretary to enter into contracts for 
municipal water supply and miscellaneous purposes.
    Several of the definitions in H.R. 2842 as drafted would 
affect the other authorities in the 1939 Act, and we recommend 
improvements which are detailed in my written testimony.
    Reclamation will continue to review and assess potential 
new hydropower projects that provide a high economic return for 
the Nation, are energy efficient, and can be accomplished in 
accordance with protections of fish and wildlife, the 
environment, or recreation.
    This concludes my statement. I am glad to answer questions 
at the appropriate time. Thank you.
    [The prepared statement of Mr. Murillo follows:]

    Statement of David Murillo, Deputy Commissioner of Operations, 
  Bureau of Reclamation, U.S. Department of the Interior, on H.R. 2842

    Chairman McClintock, members of the Subcommittee, I am David 
Murillo, Deputy Commissioner of Operations at the Bureau of Reclamation 
(Reclamation). I am pleased to provide the views of the Department of 
the Interior (Department) on H.R. 2842, the Bureau of Reclamation Small 
Conduit Hydropower Development and Rural Jobs Act of 2011. The 
Department supports the goals of H.R. 2842, which aims to increase the 
generation of clean, renewable hydroelectric power in existing canals 
and conduits. As noted in previous hearings, the Department has an 
aggressive sustainable hydropower agenda, which we continue to 
implement under existing authorities. My testimony today will summarize 
the areas where the Administration supports the objectives of H.R. 
2842, as well as detail the areas in the bill where we believe 
improvements could be made.
    Before I share the Department's views on H.R. 2842, I want to 
highlight some of the activities underway at the Department to develop 
additional renewable hydropower capacity. Last week, Secretary Salazar 
and the U.S. Department of Energy Secretary Steven Chu announced nearly 
$17 million in funding over the next three years for research and 
development projects to advance hydropower technology. The funding 
included ten projects that will receive a total of $7.3 million to 
research, develop, and test low-head, small hydropower technologies 
that can be deployed at existing non-powered dams or constructed 
waterways. The funding will further the Obama Administration's goal of 
meeting 80 percent of our electricity needs from clean energy sources 
by 2035.
    In March, the Department released the results of an internal study, 
the Hydropower Resource Assessment at Existing Reclamation Facilities, 
that estimated the Department could generate up to one million megawatt 
hours of electricity annually and create jobs by addressing hydropower 
capacity at 70 of its existing facilities. In addition, Reclamation 
will complete the second phase of its investigation of hydropower 
development, as referenced in the 2010 Hydropower Memorandum of 
Understanding (MOU)\1\ between the Department of the Interior, the 
Department of Energy, and the Army Corps of Engineers. While the first 
phase, completed in 2011, focused primarily on Reclamation dams, the 
second phase will focus on constructed Reclamation waterways such as 
canals and conduits.
---------------------------------------------------------------------------
    \1\ http://www.usbr.gov/power/SignedHydropowerMOU.pdf, 2010
---------------------------------------------------------------------------
    In summary, H.R. 2842 would do four things: 1) provide a blanket 
authorization for the installation of small hydropower units on all 
Reclamation-owned canals and conduits; 2) require that Reclamation 
offer preference to water user organizations for the development of 
canal/conduit hydropower under a Lease of Power Privilege (LOPP); 3) 
exempt small canal/conduit hydropower projects below 1.5 MW from the 
requirements of the National Environmental Policy Act (NEPA) and; 4) 
designate Reclamation's Power Resources Office as the lead point of 
contact for requests to develop canal/conduit hydropower under an LOPP.
    Section 2 of H.R. 2842 would clarify that Reclamation is 
responsible for authorizing conduit hydropower development on 
Reclamation-owned facilities through LOPP contracts. As background, 
Reclamation is authorized by existing law to issue LOPP contracts that 
utilize Reclamation-owned facilities for private hydropower development 
under Section 5 of the Townsites and Power Development Act of 1906, 43 
U.S.C. Sec. 522, and Section 9(c) of the Reclamation Project Act of 
1939, 43 U.S.C. Sec. 485h(c). Statutes that are specific to individual 
Reclamation projects may also apply. Similar to the LOPP process, the 
Federal Energy Regulatory Commission (FERC) may also issue licenses for 
hydropower development under the authority of the Federal Power Act, 16 
U.S.C. Sec. 791 et seq. To resolve potential confusion over whether a 
Reclamation LOPP contract or a FERC license should govern hydropower 
development at Reclamation facilities, Reclamation and FERC entered 
into agreements in 1981, 1992, and 2010 to address hydropower 
development. In particular, a 1992 memorandum of understanding between 
Reclamation and FERC (1992 MOU)\2\ established a process to resolve 
questions of jurisdiction over hydropower development at Reclamation 
facilities. Reclamation and FERC continue to work together to improve 
that process and make the process more efficient.
---------------------------------------------------------------------------
    \2\ The 1992 MOU is available in the Federal Register at: 58 Fed. 
Reg. 3269 (Jan. 8, 1993).
---------------------------------------------------------------------------
    Section 2 of H.R. 2842 would specifically authorize Reclamation to 
develop or enter into LOPP contracts for the development of new 
hydropower on conduits or canals on Reclamation-owned projects. This 
language would streamline the issuance of LOPP contracts by simplifying 
the Reclamation-FERC jurisdictional consultation that was established 
in the 1992 MOU. This language also could provide Reclamation with an 
opportunity to discuss programmatically resolving jurisdiction over 
hydropower development on Reclamation conduits with FERC, thus creating 
the potential to eliminate case-by-case jurisdictional consultations 
for development on Reclamation conduits.
    Section 2 of H.R. 2842 would also require that Reclamation offer 
preference in the award of LOPPs to ``irrigation districts or water 
users associations'' with which Reclamation has an existing contract 
for operations and maintenance of that project or project feature. 
Reclamation already provides preference to existing irrigation 
districts and water user associations pursuant to Section 9(c) of the 
Reclamation Projects Act of 1939. Reclamation would be happy to work 
with the sponsor of the bill and the Committee to resolve any concerns 
regarding preference.
    Section 2 of H.R. 2842 would provide that NEPA ``shall not apply to 
small conduit hydropower development, excluding siting of associated 
transmission on Federal lands[.]'' The Department opposes a waiver of 
NEPA. Furthermore, this language is in contrast to the existing 
provision in Section 30 of the Federal Power Act (16 U.S.C. 823a) that 
allows FERC to approve an application to develop hydropower within 
conduits located on non-federal lands under certain conditions. 
Accordingly, as provided in FERC's regulations at 18 CFR 
Sec. 380.4(a)(14), FERC is not required to prepare an environmental 
assessment or environmental impact statement for certain conduit 
hydropower projects that meet the statutory and regulatory criteria and 
do not have the potential for significant environmental impacts.
    The Department understands the intent of H.R. 2842 to be that 
conduits and canals are existing, man-made structures where 
environmental impacts associated with construction have already 
occurred and/or been mitigated. However, the Department's view is that 
low-impact hydropower, particularly in conduits and canals, can be 
efficiently developed by utilizing existing environmental review 
provisions that will not unduly delay project development and ensure 
environmental health and safety. Environmental analysis for many LOPP 
contracts has, for example, been addressed through categorical 
exclusions or environmental assessments rather than environmental 
impact statements. The Department believes that environmental 
protections should continue to apply in the context of new construction 
undertaken on federal lands, and will continue to apply NEPA through 
the use of categorical exclusions or environmental assessments.
    Reclamation is also investigating the application of an existing 
categorical exclusion under NEPA for minor construction projects and 
for water service contracts that involve minor amounts of long-term 
water use or temporary or interim water use where there are no 
significant environmental impacts. Reclamation believes that low-impact 
hydropower developed in conduits or canals may be appropriately 
analyzed under those same procedures, which are documented in the 
Departmental Manual at 516 DM 14.5(C)(3) and (D)(4). The Department 
understands the value and importance of expedient environmental review 
and believes development of hydropower within Reclamation's existing 
conduits and canals can be efficiently analyzed utilizing these 
existing review processes.
    I would also like to address concerns raised by language in Section 
2 specifying that ``the Power Resources Office (PRO) of the Bureau of 
Reclamation shall be the lead office of small conduit hydropower 
activities conducted under this subsection.'' The Department 
understands the bill sponsor's desire to simplify points of contact for 
entities seeking to develop hydropower. However, in practice, project-
specific expertise concerning Reclamation facilities resides first at 
the field level where ownership responsibility for the specific 
infrastructure resides. It is preferable for developers to approach the 
appropriate Reclamation regional or area office with proposals to 
develop conduit hydropower, and contact the PRO as needed. There is a 
robust channel of communication between the PRO, other Denver Offices, 
and Reclamation regional and field offices that allows for successful 
implementation of a Lease of Power Privilege agreement. The Department 
would be happy to work with the Committee on this language. Reclamation 
organizes its workforce as appropriate to maximize the efficiency and 
expertise of personnel.
    Finally, H.R. 2842 would amend 9(c) of the Reclamation Project Act 
of 1939, which in addition to providing LOPP authority, authorizes the 
Secretary to enter into contracts for municipal water supply and 
miscellaneous purposes. Several of the definitions in H.R. 2842 as 
drafted would affect the other authorities in the 1939 Act. In 
particular, the proposed definition of ``transferred work'' is too 
narrow to refer to all works affected by subsection 9(c) of the 1939 
Act, since that subsection authorizes contracts involving works other 
than conduits. Either the definition would need to be broadened to 
include all affected works, or the term defined narrowed from 
``transferred work'' to ``transferred conduit.'' Also, the existing 
1939 Act has a definitions section. Any definitions that are of general 
application should be included in the existing definitions section, 
rather than in subsection 9(c). Definitions that apply solely to 
conduit hydropower need to do so explicitly, to avoid misapplication or 
confusion. Lastly, the 1939 Act definitions section already includes a 
definition of ``Secretary''. The Department would be happy to work with 
the Committee on these technical changes to the language of the 
proposed definitions and their placement within the existing 1939 Act.
    As referenced above, Reclamation has procedures in place through 
the LOPP process for the sites where Reclamation has the authority to 
develop hydropower. We are currently reviewing our LOPP policies and 
processes to look for ways to expedite and improve the process, 
especially for conduits and canals.
    In conclusion, as stated at previous hydropower hearings before 
this subcommittee, Reclamation will continue to review and assess 
potential new hydropower projects that provide a high economic return 
for the nation, are energy efficient, and can be accomplished in 
accordance with protections for fish and wildlife, the environment, or 
recreation. As the nation's second largest hydropower producer, 
Reclamation strongly believes in the past, present and bright future of 
this important electricity resource.
    Thank you for the opportunity to discuss H.R. 2842. This concludes 
my written statement, and I am pleased to answer questions at the 
appropriate time.
                                 ______
                                 
    Mr. McClintock. Thank you very much for your testimony. The 
Committee is pleased to welcome back Mr. Robert Lynch, of 
Robert Lynch and Associates, Phoenix, Arizona, for five 
minutes.

             STATEMENT OF ROBERT LYNCH, ATTORNEY, 
        ROBERT S. LYNCH AND ASSOCIATES, PHOENIX, ARIZONA

    Mr. Lynch. Mr. Chairman, Ranking Member Napolitano, and 
Members of the Subcommittee, and Mr. Baca, for the record, I am 
Bob Lynch, an attorney in Phoenix, Arizona. I am pleased to 
have the opportunity to appear here today to support H.R. 2842.
    You already have my written testimony, and so I will not 
review it. Instead, I would like to briefly mention three 
subjects; waste, jobs, and red tape. Concerning waste, 
yesterday, in driving to the airport, I crossed two of the 
larger Phoenix area canals and numerous laterals, and I saw 
what wasted energy flowing in these conduits, unused, and on 
its way to be dissipated upon delivery of the water to its 
destinations.
    This has to stop. We are wasting tens of thousands of 
kilowatts of clean renewable small hydropower capacity each day 
in hundreds of these existing conduits throughout the West.
    The clean renewable energy each of these unused sites could 
produce is admittedly small, but taken together can match any 
major power plant in our area. The potential is enormous and we 
need to unleash that potential.
    As to jobs, most of the West canals are in rural areas 
serving farms. Rural jobs of building and maintaining these 
small hydropower sites are an obvious and necessary side 
benefit of a vigorous Federal small hydro development program. 
You need to add that vigor with H.R. 2842.
    As to red tape, in this bill, Congress will confirm that 
these small hydro installations and existing conduit do not 
need screening through the National Environmental Policy Act. 
Congress will be agreeing with the Bureau of Reclamation and 
the Federal Energy Regulatory Commission that these one-and-a-
half megawatt smaller turbines are categorical exclusions under 
existing Federal regulations.
    Indeed, both agencies provide for these in much larger 
facilities to be categorically excluded from NEPA review. I 
refer you to Reclamation's minor construction in existing 
facilities, and FERC licensed categories, as well as FERC's 15 
megawatt in conduits, and 40 megawatt in pipes exclusion under 
their regulations.
    Congressional concurrence in H.R. 2842 excluding just the 
very smallest of these turbines from NEPA is just the red tape 
cutting this program needs to jumpstart Reclamation into a 
small hydro development role that it should be playing.
    Thank you for the opportunity to support this important 
clean energy bill. I would be happy to answer any questions 
that you may have at the appropriate time.
    [The prepared statement of Mr. Lynch follows:]

                     Statement of Robert S. Lynch, 
               Robert S. Lynch & Associates, on H.R. 2842

    Chairman McClintock, Ranking Member Napolitano, Members of the 
Subcommittee, I am pleased to have the opportunity to present testimony 
in support of H.R. 2842, the Bureau of Reclamation Small Conduit 
Hydropower Development and Rural Jobs Act of 2011. I am presenting this 
testimony both on my own behalf and that of our clients and also on 
behalf of the National Water Resources Association (NWRA).
    Our firm, among other clients, represents a state association, the 
Irrigation & Electrical Districts Association of Arizona (IEDA). 
Numbered among its 25 members are most of the special districts that 
manage water delivery systems in Arizona as well as several of the 
municipalities that provide water service to their citizens. Each of 
these water service entities as well as other municipalities and water 
service entities in Arizona are potentially small hydropower 
generators.
    When I last appeared before the Subcommittee on June 23, 2011 to 
support H.R. 795, I mentioned to the Subcommittee that, in Arizona, and 
in all of the so-called Reclamation states in the West, the bulk of the 
significant canal systems that move our water supplies are owned by the 
federal government and under the jurisdiction of the Bureau of 
Reclamation (``Reclamation''). A number of these systems are managed 
and operated by non-federal entities, typically irrigation districts 
and water users associations authorized to do so under Reclamation law. 
For instance, the Central Arizona Project (``CAP'') is operated by the 
Central Arizona Water Conservation District (``CAWCD''), a multi-county 
water conservation district specifically authorized for this purpose by 
Arizona law. CAP's main system, as well as associated delivery 
facilities such as the Santa Rose Aqueduct, are available targets for 
hydropower development. Indeed, the Santa Rosa Aqueduct, managed by the 
Maricopa Stanfield Irrigation and Drainage District, is primed for that 
possibility. The local District managers have identified numerous sites 
on this aqueduct that are optimal locations for small hydropower 
development.
    For us in the West, H.R. 2842 is the flip side of H.R. 795. If we 
can minimize red tape and streamline the processes of the Bureau of 
Reclamation in granting leases of power privilege on facilities they 
manage in the West, that streamlining will create tremendous incentives 
for not only the Bureau but for the irrigation districts and water 
users associations that manage many of these facilities to move forward 
on small hydropower development. We are literally sitting on a 
hydropower gold mine waiting for the needed clarifications and 
streamlining that will cut costs and make this program more attractive.
    IEDA and other NWRA members are ready and willing to get started. 
Indeed, one of our members has already suffered the agonies of trying 
to get an exemption from the Federal Energy Regulatory Commission for 
one of its own canals. The difficulty that this district encountered 
has caused many others to pause, waiting for Congress to complete the 
streamlining embodied in H.R. 795 and this bill.
    There are tremendous advantages that can spring from this 
legislation. The untapped potential that lies out there waiting is 
typified by the Department of Energy report that identified some 1,400 
megawatts of unused capacity in canals and ditches in the State of 
Colorado where small hydropower units at below 5 megawatts could be 
installed. The nameplate capacity of Glen Canyon Dam on the Colorado 
River is 1,400 megawatts. Thus, these small hydropower units installed 
in existing ditches and canals could effectively replicate the maximum 
output of Glen Canyon Dam all by themselves.
    We and others in the West are ready to get started. We need 
Congress to streamline the processes, both for Reclamation facilities 
and for non-federal facilities. This companion enterprise will open up 
the West to a whole new product line of small hydropower facilities 
that can tap the energy in flowing water that is currently being 
wasted. If the red tape can be cut down, the cost of installing these 
units can be amortized. These are existing facilities and will have no 
impact other than to provide additional clean renewable hydropower in 
small quantities all over the western United States. Congress has the 
opportunity not only to create, in very small increments, a 
considerable new clean renewable resource but to stimulate a fledgling 
industry that can bring jobs to depressed rural areas throughout the 
West. The interest is there. The need is there. The missing pieces to 
give this potentially significant program its push to success are 
embodied in this legislation and H.R. 795. The Subcommittee has already 
successfully dealt with H.R. 795. We urge you to quickly deal with H.R. 
2842 and send this legislation speedily on its way so that we can get 
to work.
    Thank you for the opportunity to appear today and testify on this 
important legislation.
                                 ______
                                 
    Mr. McClintock. Thank you for your testimony. Our next 
witness is Mr. Christopher Treese. He is the External Affairs 
Manager for the Colorado River District, Glenwood Springs, 
Colorado. Welcome to the Committee.

  STATEMENT OF CHRISTOPHER TREESE, EXTERNAL AFFAIRS MANAGER, 
      COLORADO RIVER DISTRICT, GLENWOOD SPRINGS, COLORADO

    Mr. Treese. Thank you, Mr. Chairman, and Ranking Member 
Napolitano, and Members of the Subcommittee, and Mr. Baca, good 
afternoon. My name is Chris Treese, and I work for the Colorado 
River Water Conservation District in Western Colorado.
    I thank you for this opportunity to express my support for 
Mr. Tipton's H.R. 2842. I offer my testimony on behalf of my 
employer, the Colorado River District, and the many members of 
the District Family Farm Alliance, a grassroots organization of 
family farmers, ranchers, and supporting water districts in 16 
Western States.
    H.R. 2842 would provide much needed clarity and certainty 
to vital criteria for every water manager and every investor. 
H.R. 2842 provides clarity to the Bureau of Reclamation, 
Reclamation project operators, local water boards, and 
potential public and private investors, clarity that project 
operators have the right of first refusal for small hydropower 
development on Reclamation canals and conduits, and continued 
involvement to protect operations if they choose to relinquish 
that first right.
    Clarity that conduit hydro development and operation is a 
secondary purpose incidental to Congressionally authorized 
primary purposes. H.R. 2842 provides certainty by providing a 
commonsense categorical exclusion for small capacity hydro that 
is retrofitted into existing reclamation conduits.
    This dramatically reduces costs and time uncertainties 
associated with project permitting. My district's most recent 
NEPA process experience is approaching two years and $1 million 
for just an environmental assessment, or EA, on a project that 
involves absolutely no construction.
    With this added certainty, H.R. 2842 dramatically improves 
the economics of hydro development, and while operating margins 
for hydro development are attractive, returns on invested 
capital are razor thin.
    The current NEPA uncertainties are frankly chilling for 
public and private investors alike. There is a tremendous 
opportunity in the West for converting potential energy in our 
canals and conduits into valuable, renewable, clean energy.
    As Mr. Tipton mentioned, the DOE estimates that in Colorado 
alone that there is a total of 1400 megawatts of hydropower 
potential represented by water currently flowing in canals and 
conduits.
    Please unleash this potential, encourage public and private 
investment in small conduit hydropower, and pass H.R. 2842. I 
look forward to answering any questions.
    [The prepared statement of Mr. Treese follows:]

 Statement of Chris Treese, Manager, External Affairs, Colorado River 
Water Conservation District, on Behalf of The Family Farm Alliance, on 
``Bureau of Reclamation Small Conduit Hydropower Development and Rural 
                           Jobs Act of 2011''

    Dear Chairman McClintock, Ranking Member Napolitano, and Members of 
the Subcommittee:
    Thank you for the opportunity to present testimony today.
    My name is Chris Treese, and I represent the Colorado River Water 
Conservation District (River District) and the Family Farm Alliance 
(Alliance), of which my district is a long-time member.
    I am testifying today in support of the ``Bureau of Reclamation 
Small Conduit Hydropower Development and Rural Jobs Act of 2011'' (H.R. 
2842). This bill seeks to streamline burdensome and unnecessary federal 
regulations and rules encountered by many irrigation/water districts 
and electric utilities that seek to develop hydropower on Bureau of 
Reclamation (Reclamation) owned water canals and pipelines. And perhaps 
more importantly, it streamlines the process for entities that have 
rejected hydropower because of the time, resources, and risks 
associated just with the current permitting process. Earlier this year, 
the Alliance formally supported H.R. 795 (Adrian Smith/Costa), which 
similarly provides regulatory reform for non-federal conduits 
hydropower generation.
Organizational Background
    The Colorado River District is the principal water policy and 
planning agency for the 15 counties in northwest and west central 
Colorado. The River District is responsible for the conservation, use, 
protection, and development of Colorado's apportionment of the Colorado 
River. The River District provides legal, technical, and political 
representation regarding Colorado River issues for our constituents. 
The River District is comprised of all or parts of 15 Western Colorado 
counties--approximately 29,000 square miles--roughly 28% of the land 
area of Colorado.
    The Family Farm Alliance is a grassroots organization of family 
farmers, ranchers, irrigation districts and allied industries in 16 
Western states. The Alliance is focused on one mission: To ensure the 
availability of reliable, affordable irrigation water supplies to 
Western farmers and ranchers.
    There is considerable potential to pursue hydropower development 
within my district. There are 13 Reclamation projects within the River 
District. Some already have hydropower included in their 
authorizations. However, I believe, all could benefit from this 
legislation. I also know of several districts that have considered 
hydropower projects, but never seriously, as they are discouraged by 
the regulatory uncertainty and costs currently imposed by the existing 
permitting process.
    Many Western water users operate existing irrigation canals and 
ditch systems that may provide opportunities to develop in-canal, low-
head hydroelectric projects that have tremendous potential for 
producing significant amounts of renewable energy with virtually no 
negative environmental impacts. Necessary irrigation control and 
delivery structures can be retained while the conduit system is updated 
with modern clean-energy producing technologies. Increased revenues 
from the sale of this renewable energy can result in lower water 
delivery system operating, maintenance, and rehabilitation costs to 
farmers. And importantly, irrigation water delivery services can 
continue while utilizing flows for clean, emissions-free ``green'' 
energy production.
Challenges
    Some Western canal systems and other water delivery facilities are 
owned by Reclamation but operated and maintained by local entities like 
irrigation districts and water user organizations. Unfortunately, 
widespread uncertainty currently exists over canal-based hydropower at 
the agency's facilities.
    A few key examples demonstrate how this uncertainty is evidenced in 
the world Western water managers operate in:
        <bullet>  Some Western irrigation districts operate and 
        maintain Reclamation canals where the debt has been fully paid 
        by the operating district. Even if a local district determines 
        that it will pay 100% of a proposed conduit hydropower project, 
        it is not clear currently how revenues from these projects 
        would be shared between the district and Reclamation, including 
        the need and expense for a ``lease'' of power privilege issued 
        by Reclamation.
        <bullet>  ``Environmental reviews under NEPA are universally 
        time-consuming and expensive. Even ``just an Environmental 
        Assessment'' will require considerable time and expense. The 
        River District's current experience with an EA on a non-
        construction action has taken over a year and nearly $1 million 
        in outside expenses (not including substantial ``unbillable'' 
        district time and expense.)
        <bullet>  The margins on small hydro are very small. Districts 
        need to be able to make timely investment decisions without the 
        prospect of environmental reviews of undetermined length and 
        expense. Additionally, western water districts share the 
        nation's desire to make investments that can put people to work 
        immediately. Environmental reviews of small hydro on existing 
        conduits represent an unnecessary and often chilling 
        uncertainly for an economically marginal investment.
        <bullet>  Finally, local water managers continue to have 
        concerns about time delays and recent examples of receiving 
        conflicting information from Reclamation on development of 
        hydropower on conduits. With that said, I want to stress that 
        many of our members have found Reclamation employees genuinely 
        interested in helping to get low-head hydropower systems off 
        the ground and enthusiastic about developing this type of 
        renewable energy.
Solutions Offered by H.R. 2842
    H.R. 2842 seeks to address the challenges noted above by:
        <bullet>  Adding ``power'' as an authorized activity on all of 
        Reclamation's conduits. This authorization makes clear that 
        Reclamation would oversee conduit hydropower development at its 
        facilities.
        <bullet>  Exempting small conduit hydropower generation 
        projects under the National Environmental Policy Act (NEPA), 
        with the exception of transmission siting on federal land.
        <bullet>  Designating the Power Resources Office in 
        Reclamation's Denver headquarters as the lead office for small 
        conduit development. This provision intends to set up a 
        centralized location for uniformity purposes, yet does not 
        prohibit area offices from implementing specific conduit 
        development.
        <bullet>  Establishing hydropower as a secondary project 
        purpose subservient to Congressionally-authorized project 
        purposes, which should also reduce concerns about potential 
        environmental impacts, because water delivery, as a primary 
        purpose, will continue as it has historically.
    We support H.R. 2842 and believe it will reduce costs to foster 
more conduit hydropower at federal facilities and empower irrigation 
districts involved in the operation and maintenance of these 
Reclamation canals to develop this generation. We further believe it 
will clarify issues of federal authority on these projects, which will 
improve and stream line the decision-making processes.
Recommendations
    The River District and Alliance members have closely tracked the 
development of this bill over the past several months. We thank Mr. 
Tipton and others for inviting our input and addressing our concerns. 
We are pleased to see that it even reflects some of the testimony 
provided by our members on similar legislation earlier in this 
Congress. Like most legislation, however, it is not everything that 
everyone wants. It does represent a giant first step towards 
facilitating the development of clean, renewable energy on Reclamation 
projects. With that philosophy in mind, we recommend some further 
constructive thoughts on the bill.
        <bullet>  H.R. 2842 affirms Reclamation using its ``Lease of 
        Power Privilege'' for conduit generation facilities but 
        requires Reclamation to offer the Lease of Power Privilege 
        first to the entity/entities operating and maintaining the 
        conduit (``right of first refusal''). This is encouraging, but 
        we are concerned about how these provisions will mesh with 
        ongoing administrative efforts by Reclamation to develop a 
        policy that will set forth a process for making determinations 
        on lease of power privilege. Reclamation has been considering 
        changes to its Lease of Power Privilege process for some time, 
        but it is time for the agency to publish specifics to 
        understand how it intends to carry out this process. We 
        understand that this process will determine how much to charge 
        on Lease of Power Privilege as it relates specifically to 
        different Reclamation facilities, including conduits. Some of 
        these unanswered questions will need to be addressed in the 
        legislative process, and our organization looks forward to 
        working with you towards that end.
        <bullet>  Some of our members are also concerned that recent 
        federal policies encouraging the development of new hydropower 
        facilities in existing irrigation canal systems have attracted 
        outside developers who sometimes do not share the same 
        management objectives as irrigation districts. This can result 
        in a situation where outside entities develop power facilities 
        on water delivery systems that irrigation districts are 
        responsible to operate and maintain. It can be very difficult 
        to make arrangements like this work. Importantly, H.R. 2842 
        seeks to protect water users by specifically re-affirming 
        hydropower development as secondary to water supply and 
        delivery purposes and ensures that there will be no financial 
        or operational impacts to existing water users. Furthermore, 
        the bill protects agreements that the water users have on 
        existing conduit generation projects and provides additional 
        safeguards to ensure such projects do not undermine water 
        deliveries. Of course, the Bureau of Reclamation's adherence to 
        these values will be critical to the actual execution of these 
        provisions of H.R. 2842 on the ground. We believe Reclamation 
        should consult with the districts affected at all times before, 
        during, and after the lease, development, and operation of 
        these conduit hydropower projects commence.
        <bullet>  On the opposite end of the spectrum from the point 
        just raised, some of our members have concerns that the bill 
        may negatively impact a lead private entity from working with 
        an irrigation district on a small conduit hydropower project. 
        The Family Farm Alliance believes that the first right-of-
        refusal provisions could give local districts considerable 
        leverage to either develop these projects on its own or in 
        partnership with a private entity that may have the capital and 
        unique expertise. Again, without the details on yet to be 
        determined Reclamation policies establishing how the lease of 
        power privilege would be first offered to districts, we cannot 
        determine whether or not such arrangements would be workable, 
        let alone viable, in developing these conduit hydro projects. 
        We look forward to working collaboratively with Reclamation to 
        institutionalize workable procedures.
        <bullet>  The bill directs the Secretary of the Interior to 
        determine a ``reasonable time frame'' for the irrigation 
        districts or water users associations to accept or reject a 
        Lease of Power Privilege offer. We recommend that 
        ``reasonable'' be more specifically defined in terms of days or 
        months. In some cases, feasibility studies will need to be 
        completed to determine whether a proposed project is worth 
        pursuing or not. Time should be allowed for that process to 
        occur before the local district is required to reject or accept 
        a Lease of Power Privilege offer. Again, without the details of 
        yet-to-be-determined Reclamation policies establishing how the 
        lease of power privilege would be first offered to districts, 
        we cannot determine whether or not such arrangements would be 
        workable, let alone viable, in developing these conduit hydro 
        projects.
    Again, the organizations I represent strongly support H.R. 2842, 
and we hope that these additional recommendations are considered in the 
constructive manner in which they are offered. We are confident 
Reclamation will work with us, as they have in the past on many other 
issues, to address our further recommendations, and that this 
legislation will serve as an appropriate vehicle for continued 
discussions.
Conclusion
    Thank you for this opportunity to testify in favor or H.R. 2842. 
This legislation is very important to the family farmers and ranchers 
of our membership and to the beneficiaries of the federal projects 
within the Colorado River District. We greatly appreciate the 
cooperation of your Subcommittee staff, who solicited our input as this 
bill was being conceptualized and drafted. I respectfully urge the 
Subcommittee's favorable consideration of H.R. 2842.
    I would be happy to answer any questions you may have about this 
testimony.
                                 ______
                                 
    Mr. McClintock. The Chair would like to thank the witnesses 
for their brevity. Our final witness on this panel is Mr. Grant 
Ward, a Water and Power Consultant for the Maricopa-Stanfield 
Irrigation and Drainage District, and Electrical District 
Number 3, in Maricopa, Arizona. Welcome to the Committee.

 STATEMENT OF GRANT WARD, WATER AND POWER CONSULTANT, MARICOPA-
   STANFIELD IRRIGATION AND DRAINAGE DISTRICT AND ELECTRICAL 
               DISTRICT NO. 3, MARICOPA, ARIZONA

    Mr. Ward. Chairman McClintock, Ranking Member Napolitano, 
and Members of the Subcommittee, thank you for allowing me to 
present testimony in support of H.R. 2842. In addition to 
representing our own district, I speak today on behalf of the 
Advisory Committee of the Family Farm Alliance.
    From 1995 to 2008, I served as the general manager of the 
Maricopa-Stanfield Irrigation and Drainage District, and since 
then have been serving as their water and power consultant.
    On May 4th of this year, I had the opportunity to come 
before you to give testimony on low head hydro possibilities on 
Bureau systems in the West. At that time, we noted that we had 
spent two years trying to get answers to the very points made 
in this bill.
    Sometimes one area would determine one answer based on 
their existing history, only to have someone else look at the 
answer and state that it would not be amenable to their region.
    We asked questions, number one, about ownership, including 
who owned the right to the unit to be built. Number two, about 
the Lease of Power Privilege, and number three, about the need 
for an environmental assessment, especially when one has been 
done in the past 20 years, and the construction of the unit 
would be within the existing walls and boundaries of the 
conduit itself.
    And, four, about the need for a FERC permit, especially 
when FERC already exempts the size of most of the units once 
one applies for the permit. Last, number five, we raised the 
issue of one central office that all answers would go through 
for clearance.
    That was significant to us, and we did not want to ignore 
the expertise of regional offices, but the problem is that the 
regional office doesn't have the right to give the final answer 
unless something is written and placed in front of them, and so 
we didn't get the same answer from each office.
    This bill before you today answers those questions enough 
so that we on the ditch bank can have information to rely on so 
that we can forward with the planning of the projects, 
including costs, and time to construct such units, as well as 
some idea as to the time and costs required to meet Bureau 
requirements.
    As I noted in my earlier testimony, our district has a 
potential of building 14 to 17 units, and we won't know for 
sure until some of these questions are going to be answered 
through working with the Bureau, and as a result of this bill.
    Of those 17 units, we can generate a total of approximately 
2200 kilowatts, which provides enough electricity to power 550 
to 1,000 homes, or about 6 to 7 of our deep well pumps 
primarily used for irrigation.
    Also, having low head hydro available to our districts 
gives us options in efficient and economic operation, when, in 
the middle of the 100 degree summers in central Arizona, we can 
use the systems to reduce the requirement from the electrical 
district so they can avoid overloads or brownouts on their 
lines, and we can also generate income from the sale of the 
power to offset operational costs to the district.
    As a final note, please understand that from our 
discussions with a number of the Bureau of Reclamation 
personnel, including Deputy Commissioner Murillo, and up to the 
Commissioner, Mike Connor, they have expressed an interest in 
getting something started in low head hydro systems, but there 
has been difficulty and confusion in determining where to 
start, and recognizing that all districts are not created as 
they were in 1939, or as a one size fits all.
    This bill is a major step toward that end. Thank you for 
this opportunity.
    [The prepared statement of Mr. Ward follows:]

       Statement of Grant R. Ward, Water and Power Consultant to 
    Maricopa-Stanfield Irrigation & Drainage District, on H.R. 2842

    Chairman McClintock, Ranking Member Napolitano, Members of the 
Subcommittee, thank you for allowing me to present testimony in support 
of H.R. 2842. In addition to representing our own district I am 
speaking today on behalf of the advisory committee of the Family Farm 
Alliance. From 1995 to 2008 I served as the General Manager of the 
Maricopa-Stanfield Irrigation & Drainage District, (MSIDD) and since 
then have been serving as their Water and Power consultant. MSIDD 
includes 87,000 acres or irrigated farmland, located in western Pinal 
County of Arizona. It was formed primarily to take Colorado River water 
from the Central Arizona Project (CAP) system, when it became 
available, by connecting with the CAP's Tucson aqueduct and delivering 
the water through more than 250 miles of concrete-lined canals, 
laterals, pipelines, pumping plants and related works. The system is 
also used to deliver groundwater operated with pumps powered by 
electricity from Hoover Dam, Glen Canyon Dam, and Parker-Davis Dam as 
well as supplemental purchased power, all provided by its sister 
district, Electrical District No. 3, Pinal County.
    On May 4th of this year I had the opportunity to come before you to 
give testimony on low head hydro possibilities on Bureau systems in the 
West. At that time we noted that we had spent two years trying to get 
answers to the very points made in this bill, sometimes one area would 
determine one answer based on old history, only to have someone look at 
the answer and state that it would not be amenable to their region. We 
asked questions 1) about ownership, including who owned the right to 
the unit to be built, 2) about lease of power privilege, 3) about the 
need for an environmental assessment, especially when one has been done 
in the past twenty years and the construction of a unit would be within 
the existing boundaries and even in the conduit itself, and 4) about 
the need for a FERC permit (especially when FERC already exempts the 
size of most of these units once one applies for the permit). We lastly 
5) raised the issue of one central office that all answers would go 
through for clearance. This bill before you today answers those 
questions, enough so that we, on the ditch bank, can have information 
to rely on so that we can go forward with planning of projects, 
including costs, and time to construct such units, as well as some idea 
as to the time and costs required to meet Bureau requirements.
    As I noted in my earlier testimony our district has a potential of 
building 14 to 17 units (we won't know for sure until some of the 
questions which will be answered in this bill will come to light). Of 
those 17 units we can generate a total of approximately 2200kws, which 
could provide enough electricity to power 550 to 1000 homes, or about 6 
to 7 of our deep well pumps, primarily used for irrigation. Also, 
having low head hydro available to our districts gives us options in 
efficient and economic operations: when, in the middle of the 110 
degree summers in central Arizona, we can use the systems to reduce the 
requirement from the electrical district so they can avoid overloads or 
brownouts on their lines, and we can also generate some income from the 
sale of the power to offset operational costs to the district.
    As a final note, please understand that from our discussions with a 
number of the Bureau of Reclamation personnel, including Deputy 
Commissioner Murrillo and up to the Commissioner, Mike Connor, there 
has been an interest in getting something started in Low Head Hydro 
Systems, but there has been difficulty and confusion in determining 
where to start, and recognizing that all districts are not created as 
``one size fits all''. This bill is a major step towards that end.
    Thank you for this opportunity to appear before you and testify on 
the importance of H.R. 2842.
                                 ______
                                 
    Mr. McClintock. Thank you for your testimony and brevity. 
The bad news is that we have been called to the Floor for a 
vote. The good news is that I believe it is a single vote, 
which should not detain us on the Floor for more than about 10 
minutes. We will recess and resume as soon as a quorum is 
reestablished. So the Committee will stand in recess.
    [Recess.]
    Mr. McClintock. We will now go to questioning of the 
witnesses. The Chair will begin, and I would like to ask Mr. 
Treese, Mr. Lynch, and Mr. Ward, if any of you could just walk 
us through the current permitting maze that these projects 
currently must go through, and what it does to add to the costs 
and the feasibility of the projects.
    Mr. Treese. Thank you, Mr. Chairman. Chris Treese. 
Permitting obviously will depend on the project itself and just 
what is involved. However, if NEPA is involved, NEPA itself of 
course is not a permit.
    It is a process that is triggered by a discretionary action 
by a Federal Agency, generally associated in this circumstance 
with a permit that is required for the project. It could be a 
Clean Water Act. It might be an Endangered Species Act.
    But the process, however, once NEPA is triggered, is first 
the determination of some level of impact, and a further 
determination of whether or not an environmental assessment, or 
an environmental impact statement, is required.
    Mr. McClintock. Now, again, these projects are on existing 
facilities, right, that have likely already gone through the 
NEPA process; is that correct?
    Mr. Treese. Projects that are the subject of this 
legislation, yes, they are all Bureau projects. They may or may 
not have preceded in construction the National Environmental 
Policy Act.
    Mr. McClintock. But they are existing facilities?
    Mr. Treese. But they are existing facilities.
    Mr. McClintock. So they have either predated NEPA, or they 
have gone through the NEPA process?
    Mr. Treese. That is correct, and even predating have gone 
through the NEPA process subsequently for one or other reasons.
    Mr. McClintock. And you are simply placing a small 
generator in these canals and pipelines that either predate 
NEPA, or already have been approved through the NEPA process, 
and you are not making any other impacts on the environment. Is 
that correct?
    Mr. Treese. Yes, sir.
    Mr. McClintock. And what does the NEPA process do to add to 
the delays and expense of these projects, and does that make 
the difference between them being cost effective and cost 
prohibitive?
    Mr. Treese. The NEPA process is timely, and it is 
expensive. It is also uncertain.
    Mr. McClintock. And by timely, you mean time consuming?
    Mr. Treese. Time consuming, thank you. So the process is at 
least a year now, or two years from our current experience, and 
it also is the uncertainty associated with third-party 
lawsuits, and I think the Agencies have all acknowledged that 
their concern is with third-party lawsuits and they tend to be 
as conservative as possible, in-part for looking out for the 
applicant.
    And they tend to go to the most restrictive, the most 
exhaustive evaluation, which is an environmental impact 
statement, and the most costly, and the most time consuming.
    Mr. McClintock. How much does this add to the cost of a 
small generator?
    Mr. Treese. If it is just an environmental assessment, it 
might be as little as a half-a-million dollars. It certainly 
can be over a million if it is an environmental impact 
statement.
    Mr. McClintock. Half-a-million dollars per generator? How 
much does it cost to actually install the generator?
    Mr. Treese. I would like to defer to Mr. Lynch on that.
    Mr. Lynch. The experience that one of our districts had was 
the facility installation was about $20,000, and this was for a 
FERC exemption, and if I remember it correctly, the studies 
necessary to get the exemption were somewhere between 30 and 
$50,000.
    Mr. McClintock. OK. So on this particular project, $20,000 
to actually install the device, and it is $30,000 to $50,000 to 
get it approved. Mr. Treese, you are saying that it could be as 
much as $500,000 to $1 million just for the approval?
    Mr. Treese. Yes, sir.
    Mr. McClintock. Of a $20,000 small generator put in an 
existing facility?
    Mr. Treese. Yes, sir.
    Mr. McClintock. Is there any environmental protection that 
this process is offering for between $50,000 and $1 million?
    Mr. Ward. Well, maybe I can answer that. We have tried to 
get a feel for how much depth we should go on an EPA program. 
They have to study it first to determine whether it is an EA, a 
very simple thing, or whether it is a full-blown protection, 
and you do what is required that they tell you to do on your 
permit.
    But I will tell you that on our own system that the cost to 
do the EPA is estimated--and this was by the Bureau folks--
about $60,000.
    Mr. McClintock. Does this make a difference by the way 
between it being cost effective and cost prohibitive?
    Mr. Ward. It could be very close. You have to have it all 
together before you know.
    Mr. McClintock. Yes, and potentially could you give us just 
a ballpark estimate of potentially how much electricity is not 
being generated because of this process?
    Mr. Ward. I can only tell you that on our own system, and 
that is about 2200 kilowatts.
    Mr. McClintock. Well, Mr. Tipton has already pointed out 
1400 megawatts, the capacity of a Glen Canyon Dam, just in 
Colorado alone. So I would assume extrapolating from that, we 
are talking about the equivalence of dozens and dozens of Glen 
Canyon Dams, and tens of thousands of megawatts of lost 
electricity generating precisely because of these bureaucratic 
impediments by an Administration that is always assuring us 
that they very much want to help. That is appalling. Ms. 
Napolitano for five minutes.
    Mrs. Napolitano. Well, thank you, Mr. Chairman. There are a 
couple of questions that I would want to ask Mr. Treese. In 
your testimony, you mentioned the district's experience with an 
environmental assessment as a costly and time consuming 
endeavor.
    Does this environmental assessment involve the Lease of 
Power Privilege process or conduit development project?
    Mr. Treese. No, Ma'am.
    Mrs. Napolitano. Thank you. What is the project for water 
as part of the HCP?
    Mr. Treese. This is a project to provide water from two 
different existing facilities for the recovery of the 
endangered fish. It is a change of water uses, and no 
construction involved at all.
    Mrs. Napolitano. But wouldn't you agree that there is a 
substantial difference in the scope for an EA regarding the 
project that you just mentioned and an EA for a conduit, and 
comparing an EA for this project?
    Mr. Treese. No, Ma'am, I respectfully would not agree with 
that. I think that both involve existing facilities, and both 
involve little or no construction. Both involve essentially no 
environmental impact.
    Mrs. Napolitano. Thank you. Mr. Murillo, is it necessary to 
waive NEPA in order to expedite the hydro projects?
    Mr. Murillo. We don't believe so. We believe that part of 
the NEPA process does include the categorical exclusion.
    Mrs. Napolitano. OK. But can we be certain so that we can 
allay some of the concerns that these entities are expressing 
to this Committee, this Subcommittee; is the fears that it is 
going to going to be costly, and cost prohibitive?
    Is there something working with Reclamation to be able to 
work on reducing not only the time frame, but also reducing the 
costs?
    Mr. Murillo. We are currently working on that now. We are 
developing a directive and standard, and in that directive and 
standard, we are pointing out that for conduit power 
development and conduits, to take a look.
    Mrs. Napolitano. How long is it going to be before you 
become ready to hand it out to these individuals?
    Mr. Murillo. We hope to have that directive and standard 
out for public review within a month.
    Mrs. Napolitano. Thank you. Your testimony mentions 
Reclamation's plan to finish the second phase of the Bureau's 
investigation of hydropower development that focuses on 
conduits and canals.
    And I can tell you that for the last few years, I have been 
espousing that we need to look at solar placement of panels on 
pumps, et cetera, to save electricity, or to save costs 
essentially.
    But when can we expect this report to be completed for this 
investigation of hydropower development?
    Mr. Murillo. That will address conduit drops, an we are 
looking to get that report out within the year, within the next 
year.
    Mrs. Napolitano. Can it be expedited? This is critical 
stuff.
    Mr. Murillo. Yes, we hope to--we are trying to do that, and 
we are hoping to get it out within the next several months, the 
report.
    Mrs. Napolitano. OK. And once that is completed what would 
be the followup? What would be the next steps that you feel 
that Reclamation has to do to be able to ensure its 
implementation and support to the entities?
    Mr. Murillo. So what we will do next is similar to what we 
do to hydro resources assessment. We will go out, and we will 
have an outreach program to where we go out to the 
stakeholders, and inform them of the study that is going on, 
and we will also include that in our internet site.
    Mrs. Napolitano. OK. But do you post it on your--I forget 
what the term is for being able to know what you are doing. 
Sometimes the Federal Register does not always become readily 
available, or it comes out later.
    Is there another way, maybe a list of emails of the people 
who are working these projects for immediate notification, so 
that then they can move forward?
    Mr. Murillo. Yes, there are a number of things that we do 
with outreach. Some of them, we put them on a CD and pass them 
out to the stakeholders, or we will put it on our internet 
site.
    But there are a variety of steps that we take to ensure 
that people are aware that this study is ready.
    Mrs. Napolitano. I would like to see the steps, because 
sometimes I understand that the notification is not as timely 
as it could be, and it saves them one day, one week, one month, 
and it can save them time and money.
    Mr. Murillo. Yes, we will provide you those steps.
    Mrs. Napolitano. Thank you. Also, H.R. 2842 contains 
provisions for the right of first refusal to water districts 
operating the facilities, and then there are some instances, 
like the Ready Reservoir in Colorado, where the operating 
district is the Southeast Colorado Water Conservancy District, 
with headquarters in Pueblo.
    Yet, the local municipalities are in Basalt, Colorado. Do 
you think this provision should take into consideration both 
the operating district, as well as the local entities?
    Mr. Murillo. Yes, I do. I think that we should also look 
not only at them, but also any non-profit organization.
    Mrs. Napolitano. You made provisions for that, I assume?
    Mr. Murillo. Absolutely.
    Mrs. Napolitano. OK. Mr. Lynch, in your testimony, you 
mentioned that there is a tremendous opportunity for the 
development of conduit hydropower, with some estimates as high 
as 1,400 megawatts, equivalent to the name plate of Glen Canyon 
Dam. Wouldn't these type of non-carbon based projects help to 
lessen our dependence on carbon based energy resources, like 
the Navajo Generation Station?
    Mr. Lynch. Well, I don't know about Navajo, but it would, 
depending on where you could develop this, it would help many 
rural areas. The problem with Navajo is that it is in an 
isolated location doing a specific job, and not anywhere near 
the canal systems that you would put these small units on, and 
you would never be able to transmit that kind of power to the 
Navajo generating station area for use in the system for CAP 
water delivery, and other uses that Navajo provides now.
    Mrs. Napolitano. Thank you, Mr. Chair, but with new 
technology, I think that bears looking into. Thank you.
    Mr. McClintock. The Chair recognizes the Gentleman from 
Colorado, Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman, and panel. Thank you 
for taking the time to be able to be here this afternoon. Mr. 
Lynch, I have a question. It sounds to me that when we read 
through the bill that this will be eliminating paperwork 
requirements, not environmental laws.
    Would you maybe clarify for us whether the Endangered 
Species Act, and Clean Water Act, State water laws, and others, 
be eliminated in these hydropower projects?
    Mr. Lynch. Mr. Chairman, and Mr. Tipton, no. All this does 
is eliminate the need to do some sort of report. As you know, 
NEPA is a reporting statute, and not an action statute.
    The statutes that actually provide protection and enforce 
action are the statutes like the Clean Water Act, and the 
Endangered Species Act, the Clean Air Act, the National 
Historic Preservation Act, that require Federal action.
    These are not touched at all in this bill, and none of 
their protections are in any way inhibited in this legislation.
    Mr. Tipton. Well, I appreciate that, and I think that it is 
important to note that these are not natural waterways, 
correct? These are man-made canals that have already gone 
through the process. It is going to be inserted into those man-
made canals, and there won't be any additional impact, right?
    Mr. Lynch. Yes. The bill--the Smith bill both model 
themselves after the definitional constructs that are already 
in the Federal Power Act, and used by the Federal Energy 
Regulatory Commission.
    So we are dealing in all instances with the exact same 
subject that is a man-made structure whose primary purpose is 
not power generation, but water delivery.
    Mr. Tipton. Right. And this is for everyone, and if you 
wouldn't mind answering it. Isn't it true that NEPA has already 
completed a lot of Bureau of Reclamation water projects when it 
came to other processes, such as renewal of contracts with 
water users and other processes; is that correct?
    Mr. Treese. Yes.
    Mr. Lynch. Yes. For instance, the Central Arizona Project, 
and Mr. Ward's delivery canal that feeds off of that, started 
environmental impact statements on its construction in the 
early 1970s. I know because I was there doing them with the 
Bureau of Reclamation.
    So the screening on most of these things, even pre-NEPA 
facilities that have had later significant adjustments, or 
repairs, is in place in almost every one of these situations. 
Even transfers of title, and things like that, go through this 
same kind of screening.
    So, the West is pretty well covered by NEPA already, in 
terms of our irrigation facilities.
    Mr. Tipton. Mr. Murillo, that is accurate, correct?
    Mr. Murillo. Yes, a lot of the screening and the post-NEPA 
Act have already been looked at, and so we agree.
    Mr. Tipton. Great. Well, I would like to follow up a little 
bit with maybe Mr. Lynch and Mr. Ward given that. Why is it 
necessary for Reclamation to perform another NEPA assessment on 
a facility that has already been analyzed for environmental 
impacts?
    Mr. Ward. I guess the short answer to that is that we don't 
think they do.
    Mr. Lynch. OK. I don't know what happened to Grant's voice, 
but it is not my fault.
    Mr. Ward. Yes, it is.
    Mr. Lynch. The slightly longer answer is that we are only 
talking about waiving the need to do a report, and not take 
action, under a process law, and only as to the very smallest 
of these turbines.
    I mean, the kinds of things that you could build with an 
outboard motor propeller. So, there is nothing being sacrificed 
here in terms of environmental protection, and just paperwork.
    Mr. Tipton. Great. So we are standing up for the 
environment, and we are being able to generate electricity, in 
a clean, carbon free environment we possibly can. That sounds 
pretty positive, but maybe if you all would just like to answer 
this question. Will this bill harm the environment? Mr. 
Murillo, do you want to start?
    Mr. Murillo. I didn't hear the question.
    Mr. Tipton. Will this bill harm the environment?
    Mr. Murillo. Well, we want to make sure once again that the 
NEPA process is followed.
    Mr. Tipton. Certainly, but will this bill harm the 
environment?
    Mr. Murillo. One again, like I said, we want to make sure 
that we follow the NEPA process to ensure that there are no 
negative impacts to the environment.
    Mr. Tipton. Mr. Lynch, would you care to take that up?
    Mr. Lynch. I don't see how it could since FERC already has 
a much larger categorical exclusion than this bill offers.
    Mr. Tipton. Great. Mr. Treese.
    Mr. Treese. The Colorado River District and the Family Farm 
Alliance simply would not be supporting it if that were true.
    Mr. Tipton. Thank you. Mr. Ward, I don't want to strain 
your voice.
    Mr. Ward. It is my feeling that if they were to pick up the 
report that was made on our canal when it was designed and 
built, they would not change that NEPA one iota, because we 
don't change anything in the canal.
    Mr. Tipton. OK. Thank you so much. I yield back, Mr. 
Chairman.
    Mr. McClintock. Thank you. I understand that Mr. Baca 
yields. Mr. Gosar of Arizona.
    Dr. Gosar. Mr. Lynch, Mr. Tipton's bill updates a 1939 law 
governing how Reclamation produces power and other things. What 
has changed since 1939 in the hydropower world, and does this 
bill bring this law up to date?
    Mr. Lynch. Mr. Chairman, and Mr. Gosar, I don't think that 
we have enough time today to talk about all of the things that 
have changed since 1939, but let me tell you a couple of very 
important ones.
    Number one, in 1939, irrigation districts and water user 
associations, the only two entities entitled under Reclamation 
law to take over O&M on canals were not in the electric 
business. They are now.
    In 1939, they weren't operating Reclamation facilities. 
Reclamation was. They are now. It is a whole different world, 
and we need to modernize this section of the Reclamation 
Project Act of 1939 to recognize that the boots on the ground 
are our folks now, and that Reclamation has not only 
encouraged, but in some cases virtually mandated that local 
facilities be managed by local beneficiaries.
    It gets the O&M responsibility off their back and their 
budget, and it puts the boots on the ground with the people who 
are taking the water, and this bill recognizes that very 
important construct. So, yes, it is time for some updating.
    Dr. Gosar. Well, I want to follow that up. Mr. Murillo 
seemed to be concerned about the definition of the term 
transferred works in the bill. Do you see a problem with that 
definition?
    Mr. Lynch. No, I don't. The definition in this bill is 
there just to be used in Section 9[c]. It is there just to be 
used for the purposes of this bill. Reclamation has other 
entities, municipalities, who manage some of their facilities.
    They do it typically under repayment contracts, and it is 
not a Lease of Power Privilege mechanism, and this bill in no 
way interferes with or disturbs that. I mean, I think that 
their concern is that we have created a definition that didn't 
exist in Reclamation law just for this purpose, and it is not a 
Reclamation law by definition.
    None of their lawyers should have any problem with that. 
They ought to be able to sort it out. The definition works for 
the bill. It does not impact any other part of reclamation law.
    Dr. Gosar. Mr. Ward, has there been uniformity in confusion 
within the Bureau of Reclamation regarding answers on how to 
get and develop conduit power?
    Mr. Ward. Just turn those words around, confusion in 
uniformity. There is confusion. I have mentioned in my 
testimony that we spent two years trying to get some basic 
answers in order for us to put this system in, and we are ready 
to go now.
    In order for us to put it in, we couldn't get an answer 
from the Bureau on who owns it, and what kind of a lease it 
should be. Lease of Power Privilege is something that can 
control it, and we would not be able to build the system 
ourselves.
    Mr. Tipton. And I am right there with you. I had to 
actually submit a bill on behalf of establishing jurisdiction 
between the Department of Agriculture and the Department of the 
Interior over a pipeline, and who had jurisdiction to repair 
it, which is ridiculous.
    Mr. Ward, will the provision that allows the Power 
Resources Office to be a clearinghouse for information on this 
development be helpful to others seeking such answers in the 
future?
    Mr. Ward. I think it would be helpful to us right now, but 
the thing is that I appreciate the areas of the Bureau, and 
their needs to know what is happening, and where to go, but 
when they need an answer, they need to go somewhere to get that 
answer, and we all need to be able to rely on that answer, 
whether it is a power energy office, or whether it is a 
regional office, or an area office. So it would be very 
helpful.
    Dr. Gosar. Mr. Murillo, in the timelines that we are 
talking about, tell me the time that it is currently taking, 
the average time that it is taking, for an EA or full-blown 
NEPA?
    Mr. Murillo. Well, we are currently going through some 
Lease of Power Privileges right now at some of our facilities, 
and right now what I am being told is that it is taking 
anywhere from five months to seven or eight months to complete 
some of the EAs.
    Dr. Gosar. For reassessment. How about for a new one?
    Mr. Murillo. What is that?
    Dr. Gosar. How about a new one?
    Mr. Murillo. Oh, boy, I don't know.
    Dr. Gosar. Well, let me ask the next followup question 
because I am running out of time. Is this time frame shorter or 
longer than it was 10 years ago? How about we answer that 
longer.
    In my district, all it has been doing is growing longer and 
longer with delays. Would you see that as being consistent, Mr. 
Ward, that they are growing longer and longer with delays?
    Mr. Ward. I would.
    Dr. Gosar. How about you, Mr. Lynch?
    Mr. Lynch. Definitely.
    Dr. Gosar. You know, Mr. Murillo, trust is a series of 
promises kept, and call me a skeptic, but I see the 
bureaucratic mess becoming even more entangled, and more 
entangled for people to try to come up with solutions not being 
problematic. Thank you.
    Mr. McClintock. Thank you. That concludes the testimony and 
questions of the first panel. I want to thank our witnesses for 
their guidance and expertise today, and I would now ask our 
second panel to take his seat.
    Our second panel is on H.R. 200. It consists of The 
Honorable Ed Scott, Mayor Pro Tem of the City of Rialto. Also 
with us, I understand for questions only, is Mr. William 
Werkheiser. So, the Chair recognizes Mr. Scott for five 
minutes. Welcome.

  STATEMENT OF HON. ED SCOTT, MAYOR PRO TEM, CITY OF RIALTO, 
CALIFORNIA, ACCOMPANIED BY WILLIAM WERKHEISER, U.S. GEOLOGICAL 
      SURVEY, ASSOCIATE DIRECTOR, WATER, RESTON, VIRGINIA

    Mr. Scott. Thank you. Thank you, Chairman McClintock, for 
the invitation, and Members of the Subcommittee. Thank you for 
this opportunity to come before you today and show my city's 
support for Congressman Joe Baca's bill, H.R. 200.
    I am Ed Scott, Mayor Pro Tem, from the City of Rialto, 
California. I not only speak for my residents in a city of 
96,000 people, but also approximately 400,000 residents who 
reside in the neighboring cities, and are affected by chemicals 
which have polluted the Rialto-Colton Basin.
    The Rialto-Colton Basin was once an underground water 
source which was pristine and precious, but today it is a 
source of drinking water which has been contaminated by TCE, 
perchlorate, and other possible harmful chemicals.
    Perchlorate, a salt used in the manufacturing of missiles, 
ammunition, and fireworks, has been determined to affect 
thyroid functions of persons exposed to it. Perchlorate is 
especially dangerous to pregnant women, their fetuses, and 
small children.
    The State of California has set the maximum allowable level 
at six parts per billion. Rialto has detected levels as high as 
10,000 parts per billion. This level of perchlorate 
contamination is perhaps the highest in the Nation.
    Perchlorate contamination of the Rialto-Colton Basin has 
had a severe impact on the City of Rialto and its residents. It 
has eliminated Rialto's best quality water supply, as well as 
its cheapest.
    It has required Rialto to shift its reliance to water 
sources of lesser quality, requiring expensive treatment 
systems for the removal of contaminants. It has disrupted 
Rialto's ability to ensure that service to its current and 
future customers is reliable and uninterrupted.
    As Members of this Subcommittee know all too well, a clean, 
affordable, reliable water supply is the life blood of a 
community like Rialto. The perchlorate plume in the Rialto-
Colton basin is believed to be more than six miles long, and 
one mile wide, although the full extent of the plume is not 
known.
    The shutdown of 13 of Rialto's wells has reduced production 
capacity by nearly 48 percent. The shutdown loss is around 12 
million gallons per day, which exceeds the average daily 
pumping demand for all of Rialto's customers.
    In other words, the basin pumping capacity has been 
currently lost to perchlorate contamination, which is around 
12,000 to 15,000 acre-feet per year. The city has lost its 
ability to have a backup water source.
    Unless we are able to attack this problem at its source, 
wellhead treatment may be necessary for years to come. The 
sobering fact is that this chemical could affect the lives of 
my residents, and many others, for generations to come.
    Rialto has spent $32 million dealing with this problem, and 
there is no end in sight. The need for Congressman Baca's bill 
is compelling. Our aquifer is a very complicated one, 
surrounded by earthquake faults and requires a comprehensive 
study to further understand how to deal with this problem and 
commit to an effective clean up.
    In order for the cleanup to be effective, however, the 
plume must first be adequately characterized ideally, and the 
perchlorate contaminated water plume can be pumped out of the 
ground, water treated, and then used.
    The study purpose of H.R. 200 will help us answer these 
questions, and put us in a position to resolve this once and 
for all. Only upon completion of such a study can we fully 
implement a plan to contain its movement, and put a plan in 
place to effectively clean up the precious drinking water 
source.
    In closing, I want to express my city's sincere thanks to 
Congressman Baca, Congresswoman Napolitano, and yourself, Mr. 
Chairman. I stand ready to answer your questions.
    [The prepared statement of Mayor Pro Tem Scott follows:]

          Statement of The Honorable Ed Scott, Mayor Pro Tem, 
          City of Rialto, California, in Support for H.R. 200

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to come before you today and show my City's support for 
Congressman Joe Baca's bill, H.R. 200, the Inland Empire Perchlorate 
Ground Water Plume Assessment Act of 2011. I am Ed Scott, a Council 
Member from Rialto, California. I not only speak for my residents in a 
City of 96,000 people but also approximately 400,000 residents who 
reside in the neighboring cities and are affected by chemicals which 
have polluted the Rialto-Colton Basin.
    The City of Rialto relies on groundwater from the Rialto-Colton 
Basin, its most important water source, to deliver water to its 
residents, schools, hospitals, parks and businesses. The Rialto-Colton 
Basin was once an underground water source which was pristine and 
precious. But today it is a source of drinking water which has been 
contaminated by TCE, perchlorate and other possible harmful chemicals.
Impact of Contaminated Basin
    Contamination of the Rialto-Colton Basin has had a severe impact on 
the City of Rialto and its residents. It has eliminated Rialto's best 
quality water supply as well as its cheapest; it has required Rialto to 
shift its reliance to water sources of lesser quality, requiring 
expensive treatment systems for the removal of contaminants; it has 
disrupted Rialto's ability to ensure that service to its current and 
future customers is reliable and uninterrupted 100 percent of the time, 
through normal, dry, and drought years; it has reduced or eliminated 
Rialto's ability to call upon its neighbors for emergency supplies, 
because their water supplies have been similarly strained; it has 
impaired Rialto in the flexibility of its use of existing facilities, 
effectively stranding some of them; and it has reduced the reliability 
of Rialto's overall water supply. As members of this Subcommittee know 
all too well, a clean, affordable, reliable water supply is the life-
blood for a community like mine.
Perchlorate
    Perchlorate, a salt used in manufacturing of missiles, ammunition, 
and fireworks, has been determined to affect thyroid functions of 
persons exposed to it. Perchlorate is especially dangerous to pregnant 
women, their fetuses and small children.
    In adults, the thyroid helps to regulate metabolism. In children, 
the thyroid plays a major role in proper development in addition to 
regulating metabolism. Impairment of thyroid function in expectant 
mothers may affect the fetus and newborn and result in effects 
including delayed development and decreased learning capability. 
Impairment of thyroid function in nursing mothers may have similar 
effects on their newborn.
    A December 11, 2006 National Institute of Environmental Health 
Sciences report titled ``The Evaluation of the U.S. EPA's Preliminary 
Remediation Goal for Perchlorate in Groundwater: Focus on Exposure to 
Nursing Infants,'' concludes that the unborn child may be particularly 
vulnerable to perchlorate toxicity and that the U.S. EPA Preliminary 
Remediation Goal of 24.5 ppb should be evaluated in light of these 
exposures.
    California has set a Public Health Goal of 6 ppb and has proposed a 
Maximum Contaminant Level for perchlorate in drinking water of 6 ppb. 
The United States Environmental Protection Agency has adopted a 
reference dose for perchlorate of 0.0007 milligram/kilogram-day, which 
leads to a Drinking Water Equivalent Level of 24.5 ppb. The reference 
dose and its corresponding Drinking Water Equivalent Level are 
respectively the recommended ``to be considered'' value and the 
preliminary remediation goal for perchlorate.
    The State of Massachusetts, on the other hand, has set a maximum 
allowable level in its water at 2 parts per billion (ppb), virtually a 
non-detect level. Based on the fact that there is no agreement within 
the scientific community, let alone by lawmakers, on just how much 
perchlorate can safely be ingested, the Rialto City Council has adopted 
its ``Zero Tolerance Policy.'' Under the City's policy, if a well tests 
positive for detectible levels of perchlorate, that well is shut down 
and taken out of service. Its water is not placed into the City's water 
system unless and until it is outfitted with treatment equipment and 
the water tests ``non-detect'' for perchlorate using state-approved 
testing methods. In this manner, no detectable perchlorate is allowed 
into the Rialto Water System and the citizens served by Rialto may rest 
assured that their water is safe.
Rialto Contaminated Wells
    The perchlorate plume in the Rialto-Colton Basin is believed to be 
more than 6 miles long and about 1 mile wide, although the full extent 
of the plume is not known. Seven of Rialto's thirteen wells have been 
removed from service for some period due to detections of perchlorate. 
The shutdowns of these wells have reduced Rialto's production capacity 
by nearly 48 percent. The City has lost its ability to have a back up 
source of water when emergencies occur, such as well failures, 
surrounding agencies needing additional water, and not having enough 
water to meet future growth within our own service area.
    Of Rialto's 13 production wells, seven have been removed from 
service for some period because of perchlorate contamination. The 
shutdown loss is around 12 million gallons per day (mgd), which exceeds 
the average daily pumping demand for all of Rialto's water customers. 
The Rialto Basin pumping capacity that has been currently lost to 
perchlorate contamination is around 12,000 to 15,000 acre feet per 
year.
    The City has had to take other measures to ensure the residents and 
its customers needs will be met. The City spent $100,000 to construct 
an emergency tie-in with Riverside Highland Water Agency to provide an 
additional 2,000 gallons per minute of water to the City if needed. 
This replaces one well out of 7 impacted by perchlorate contamination.
Wellhead Treatment
    Currently, there are two primary treatment technologies in the 
United States for removing perchlorate in water: ion exchange and 
biological remediation technologies. Rialto's wellhead treatment 
facilities use ion exchange.
    While the City Council's ``Zero Tolerance Policy'' is the only 
responsible action we can take as elected officials, removing 
perchlorate from our groundwater is an expensive undertaking borne by 
the City and its ratepayers. For example, the installation of ion 
exchange treatment equipment costs approximately $1 million per water 
well, and it costs up to $500,000 per year to operate the perchlorate 
removal equipment at each well. Research is currently underway to 
develop other newer, cheaper technologies but they are not yet 
available.
    Rialto has installed wellhead treatment facilities on three of its 
wells in and around the Rialto-Colton Groundwater Basin. It has 
increased its pumping in those wells, and left the other polluted wells 
out of service. Rialto is treating the water drawn from those wells 
until it tests ``non-detect'' for perchlorate, using state-approved 
testing methods verified through a state certified laboratory. The City 
has its wells tested on a monthly basis for perchlorate contamination 
at an average cost of $65 per sample which adds an additional $27,000 a 
year to its sampling budget. Thus far, the City has spent $32 million 
dealing with the perchlorate issue--an enormous sum of money for a 
working class community.
    Wellhead treatment is a temporary and very expensive measure that 
has allowed Rialto to continue to meet demand on a short-term basis. 
Wellhead treatment does not come close to replacing what Rialto has 
lost due to the contamination of the Rialto-Colton Basin.
    The City spends an average of $335,000 per year for treatment cost 
for reginerable resin at one well site and needs to lease land next to 
the site to accommodate the large footprint needed to house the 
treatment vessels. The City is in the process of drilling an additional 
well to replace the loss of wells in the Rialto-Colton Basin at a cost 
of $1.5 million dollars. The City continues to look at other resources 
to provide additional water for the needs of its community such as 
recycled water to lessen the demands on potable water, however, 
providing the irrigation water the large landscape areas are in need 
of. To expand the current system it is estimated to cost $5 million to 
contract and convey the recycled water to the high demand areas within 
the City.
    The principal goals of Rialto's water department are to serve safe, 
affordable, and reliable water every day, including having sufficient 
redundancy in its system to meet all contingencies and to plan to meet 
anticipated demand over the next 20 years in normal, dry, and multiple 
dry years. The Rialto-Colton Basin is the linchpin of the City's water 
supply system. Because the Basin plays a central role in the City's 
long-term water supply planning, perchlorate contamination is not 
adequately remediated by the provision of wellhead treatment.
Sources of Contamination
    We have learned that perchlorate contamination began in the 1940s 
through actions of the U.S. military, continued into the 1960s through 
the work of U.S. defense contractors, and was added to by firework 
companies until 1996. The City discovered high levels of contamination 
in our drinking water in 1996 and stopped all sources from further 
pollution. The State of California has set the maximum allowable level 
of perchlorate at 6 parts per billion--Rialto has detected levels as 
high as 10,000 parts per billion.
    Investigations to date have identified several areas where 
discharges of materials containing perchlorate salts have either 
occurred or are likely to have occurred in the northern section of the 
Rialto-Colton Basin. These sites include: the former U.S. military's 
Rialto Ammunition Backup Storage Point (RASP) bunker complex; the B.F. 
Goodrich/Black & Decker site; the San Bernardino County Mid-Valley 
Sanitary Landfill site; and an area occupied by firework companies, 
called the Stonehurts site, which consists of five acres located 
immediately south of the former RASP munitions bunker complex. These 
sites are believed to be the hot zones feeding the two identified 
perchlorate plumes in the Rialto-Colton Basin.
Basin Characteristic
    Our aquifer is a very complicated one surrounded by earthquake 
faults and requires a comprehensive study to further understand how to 
deal with this problem and commit to an effective clean up.
    The Rialto-Colton Basin is an elongated basin with the long axis 
oriented northwest-southeast, and lies within the Santa Ana River 
Watershed. The San Gabriel Mountains and Barrier J form the 
northwestern boundary of the Rialto-Colton Basin while the badlands 
area to the south forms the southeastern boundary. The Rialto-Colton 
Fault forms the southwestern boundary of the basin and impedes flow 
into the neighboring Chino Basin for much of the length of the basin. 
In the southern portion of the basin, the Rialto-Colton Fault no longer 
acts as a barrier to groundwater flow and groundwater migrates into the 
Chino and Riverside Basins. The northeastern boundary of the basin is 
formed by the San Jacinto Fault and Barrier E, which separates the 
Rialto-Colton Basin from Lytle and Bunker Hill Basins. Groundwater in 
the Rialto-Colton Basin flows from the northwest to the southeast. In 
the southern part of the basin, groundwater flows westward towards the 
Chino Basin. If left alone, the perchlorate plumes will eventually 
migrate into these adjacent basins, threatening the water supply of 
countless of communities in Southern California.
    Before a comprehensive cleanup plan can be developed, additional 
data must be collected at source sites and regionally. Although we have 
a substantial amount of information through EPA and other monitoring 
wells, information gaps still remain that must be resolved prior to 
finalizing and implementing an effective cleanup plan to restore the 
aquifer and protect the public's interest. As listed in a study 
released by the City in 2007 regarding the development of a 
comprehensive cleanup strategy, issues that still remain to be 
addressed are:
        <bullet>  The plume has not been fully delineated, either 
        horizontally or vertically;
        <bullet>  The extent of commingling of the plume emanating from 
        several source sites has not been completely characterized and 
        modeled.
        <bullet>  The chemical migration rates within the contaminated 
        zones have not been fully tested.
        <bullet>  It is not known what basin recharge rates will be 
        necessary to support the treatment system.
        <bullet>  It is not known what is causing the recent surge in 
        perchlorate concentrations in groundwater, whether significant 
        sources are being flushed through the vadose zone, or if 
        perchlorate is being remobilized.
        <bullet>  The impacts and extents of all source areas that 
        contribute to the regional plume must be fully characterized.
    H.R. 200 will help us better understand these issues so that we can 
mobilize scarce resources in developing the most cost-effective cleanup 
strategy for the Basin.
Need for H.R. 200
    Perchlorate has been present in the Rialto-Colton Basin for over 65 
years and the problem is getting worse, not better. The dilemma we face 
today is the plume of contamination continues to move southeasterly at 
a high rate of speed (possibly 2 feet per day) towards the County of 
Riverside and eventually Orange County. This frightening possibility 
could affect the water source for hundreds of thousands of people. The 
perchlorate plume will likely remain indefinitely in the Rialto-Colton 
Basin until removed through implementation of a clean-up and abatement 
plan.
    In order for the cleanup to be effective, however, the plume must 
first be adequately characterized, and then additional wells, treatment 
facilities, possibly reinjection wells and similar other facilities and 
techniques will be required before the plume can be fully remediated. 
Ideally, the perchlorate-contaminated water plume can be pumped out of 
the ground, the water treated and then either used or reinjected back 
into the ground. In some cases removal of contaminated soil may be 
required. These questions will begin to be answered more fully as the 
plume is characterized more definitively. The study purpose of H.R. 200 
will help us answer these questions and put us in a position to resolve 
this once and for all. Only upon completion of such a study can we 
fully implement a plan to contain its movement and put a plan in place 
to effectively clean up this precious drinking water source.
    In closing, I want to express my City's sincere thanks for the 
assistance we have received up to this point from Senators Dianne 
Feinstein, Barbara Boxer, Congressman Joe Baca and Congresswoman Grace 
Napolitano, all of whom have been leaders on water issues in 
California.
    I stand ready to answer your questions.
                                 ______
                                 
    Mr. McClintock. Thank you for your testimony, and again the 
Chair also welcomes Mr. William Werkheiser from the United 
States Geological Survey. I just have two concerns. This 
measure has gone through the Subcommittee, and was passed by 
the House Natural Resource's Committee in the One Hundred and 
Eleventh Congress by bipartisan support.
    And as Congressman Baca said, it cleared the House and so 
we have heard this before. I just have two quick concerns. 
Number one is the Federal nexus. Perchlorate is a salt compound 
as you pointed out, and it is created by both manufacturing of 
rocket fuels, as well as fireworks.
    Rialto is the fireworks capital of California. How much of 
this was through fireworks manufacturing, and how much of it 
was through Federal contractors actually developing rocket 
fuel?
    Mr. Scott. In our research, we have determined that there 
are actually three major responsible parties. Two of those are 
DoD related companies, and one is a fireworks manufacturer.
    Mr. McClintock. The other concern that I have is that the 
EPA sets a tolerance level at 24.5 parts per billion. The State 
of California, which--well, let us just say they have some 
eccentricities when it comes to their public policy--is at six 
parts per billion.
    And I understand from your written testimony that Rialto 
also has a zero tolerance policy of zero parts per billion. You 
are not asking Federal taxpayers to shoulder the costs for 
anything that would involve treating of water below EPA 
standards, correct?
    Mr. Scott. That would be correct, but I would add that the 
EPA currently is looking at lowering their standard, and it has 
been suggested that it would be right around six parts per 
billion.
    Mr. McClintock. All right. Thank you. Mr. Werkheiser, the 
Congressional Budget Office estimates that the study in the 
bill would cost about $4 million in taxpayer funding. Under 
what program could USGS fund this research from existing funds?
    Mr. Werkheiser. Yes, this work would be funded under our 
cooperative water program, which requires at least a 50 percent 
match from a non-Federal source, and it is how most of the work 
has been funded there today.
    Mr. McClintock. OK. Why isn't this happening?
    Mr. Werkheiser. We have done a fair amount of work. That 
work has included characterizing the aquifers in the area, but 
what I would say is that when you go from characterizing 
aquifer water supply, or artificial recharge, to looking at 
contaminates in water, that requires a level of detail much 
greater than what we have been able to do. So we have been 
doing work as we can afford it.
    Mr. McClintock. Well, on average, how much does this 
program receive annually?
    Mr. Werkheiser. The Cooperative Water Program receives--
this year it was $63 million.
    Mr. McClintock. So, $63 million, and you need $4 million to 
do this study?
    Mr. Werkheiser. Right.
    Mr. McClintock. Now, according to a document taken from 
your website, the Cooperative Water Program spends taxpayer 
dollars at, quote, 750 interpretative projects, annually 
targeted at specific issues, such as the effects of 
urbanization, and dam removal, agricultural practices, and it 
goes on. Is that true?
    Mr. Werkheiser. Yes, we do include those type of works. It 
also funds a large part of our stream gauging.
    Mr. McClintock. Here is the concern that I would like to 
express, not with respect to this bill, but with respect to 
this Administration's priorities. We just heard a lot of 
testimony about the benefits of more hydropower from small 
hydroelectric generators.
    We have agencies using taxpayer dollars to study dam 
removal, tearing down perfectly good hydroelectric dams that 
are generating hundreds of megawatts of electricity. Meanwhile, 
while we are doing that, and spending money through your 
program for such purposes, we have communities like Rialto who 
are begging for USGS action to help provide clean drinking 
water.
    And I just wonder is that an appropriate setting of 
priorities? I will offer that as a rhetorical question, because 
I certainly don't want to put you on the spot. With that, I 
will yield back and recognize Mr. Baca for five minutes.
    Mr. Baca. Well, thank you very much, Mr. Chairman, an thank 
you very much for the promotion that I now have gotten to be 
the Ranking Member on the Committee, since she stepped out 
temporarily.
    Mr. McClintock. Temporarily Acting Ranking Member.
    Mr. Baca. But I do appreciate that very much. And thanks 
for your last question, because I think the priority that needs 
to be done, it seems like, in a city like Rialto, has been 
impacted not only now, but for many, many years.
    And it seems like, Mr. Chairman, you have asked some of the 
questions that I think are very important. Right now, it seems 
like we have put a priority in some of the dams, or in some of 
the areas in tearing them down, when what we need to do is to 
improve the quality of life for individuals that are being 
affected that need clean water.
    And as we see the growth in the Inland Empire, and maybe I 
will start with the Major Pro Tem from the City of Rialto, do 
you see future growth in population? I know that you stated in 
your statement that it impacts 4,000 residents, but it could 
impact a lot more based on the growth of the population, 
because more and more people are moving into the City of 
Rialto.
    There is a probability of additional growth, and those 
individuals would be impacted. Is that not so the case?
    Mr. Scott. That would be correct. We predict over the next 
20 years that our rooftops, housing rooftops, will double.
    Mr. Baca. And, Mr. Werkheiser, getting back, William, to 
one of the questions that was asked earlier by the Chair of the 
Committee, and it seems like we should not need this bill, and 
it should have already been done without this bill.
    But it seems like you have not set a priority in this area, 
and that you could have already have done and had the 
cooperation, not only in terms of the matching funds, or the 
funds that are needed there, because the monies were already 
allocated and set aside.
    It is just that we need USGS to do a study, and so why not, 
and why wasn't it done, and why is it that we are waiting for a 
bill to come before us when the Administration should have 
taken action in this, and I think that is what the Chairman 
said as well; is that correct?
    Mr. McClintock. I am not providing testimony, Mr. Baca.
    Mr. Baca. But I wanted you to back me up.
    Mr. Werkheiser. I guess what I would say is that we 
actually have done a fair amount of work in the area, and we 
recognize that it is not enough, and that it is not all that is 
required.
    We share the interest. Again, with a $63 million program 
that has to fund 50 States, and the State of California 
probably gets a little over $2 million in Cooperative Water 
Program funds, and how they are used.
    But I will point out that just recently that we talked 
about the sources of perchlorate. I think we are in the midst 
of a study now to look at the isotopic composition, which will 
help evaluate what those sources are, and where they are from.
    So there is ongoing work, but we can't do it at the rate 
quickly enough, and with the necessary resources to get an 
effort at this level started right away.
    Mr. Baca. But also, William, will this study by the USGS, 
can you expand on your comments in reference to the study, and 
why would the study authorize an HRB to benefit communities 
throughout the Southwest? Because it would also impact, and it 
would help, Southwestern States throughout the United States.
    It would help Colorado, and it would help Arizona, and it 
would help Nevada, and the surrounding areas, and not only in 
our area where we don't have to rely on the other areas.
    And then we know that the contamination has a probability 
if we don't do anything, and the impact that it could have not 
only in San Bernardino County, Riverside County, and then on 
into the Orange County as well.
    Could you elaborate on it? Would it help the Southwestern 
States, the study?
    Mr. Werkheiser. Yes, I think there is a lot of transfer 
value for such a study. I think right now there have been in 18 
States where perchlorate has been detected at above the six 
parts per billion level at least.
    So there is transfer value to such a study, but the main 
benefit is to the complexity within the aquifer, and the main 
benefit would accrue to that area, but there is certainly 
transfer value to other areas.
    Mr. Baca. And, again, you know, I want to thank Mayor Pro 
Tem Scott, Ed Scott, for coming here and testifying, and caring 
about the community. In your experience how significant is the 
economic loss that Rialto and the Inland Empires have had to 
cope with due to the perchlorate contamination in the ground 
water of the Rialto-Colton Basin?
    Mr. Scott. Well, Rialto has really had to go elsewhere for 
water, and we are paying more for that water than we would 
normally be paying. Additionally, as you had stated in your 
original statement, we have put a perchlorate surcharge on all 
of our residents.
    And while $12 a month doesn't seem like a lot, it has gone 
on for 10 years.
    Mr. Baca. And $12 is very difficult when you are trying to 
put food on the table, and you are trying to live within your 
own means.
    Mr. Scott. Right.
    Mr. Baca. Twelve dollars is a lot when you add that up to 
every other bill that you have. It makes it very difficult on 
someone in the area who basically says, you know what, we 
should have clean water. We should have good water, and we 
shouldn't have to worry about the effects that it is going to 
have not only on thyroids, but infants and others in the 
immediate area.
    So I thank you for coming, and taking the time, and giving 
your testimony on behalf of not only the citizens of Rialto, 
but the impact that it would have in the State of California 
and the Southwestern States, too, as well.
    Mr. Scott. Thank you for the invitation.
    Mr. Baca. I yield back the balance of my time.
    Mr. McClintock. Well, I would like to thank our witnesses 
for their testimony. Members of the Subcommittee may have 
additional questions for witnesses, and we would ask that you 
respond to these in writing.
    The hearing record will be kept open for 10 business days 
to receive those responses, and if there is no further 
business, without objection, the Committee stands adjourned.
    [Whereupon, at 3:40 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

     Statement submitted for the record by U.S. Geological Survey, 
              U.S. Department of the Interior, on H.R. 200

    Chairman McClintock and members of the Subcommittee, thank you for 
the opportunity to provide the Department of the Interior's views 
regarding U.S. Geological Survey (USGS) scientific capability relevant 
to the Inland Empire Perchlorate Ground Water Plume Assessment Act of 
2011 (H.R. 200).
USGS Science in Support of Groundwater Management and Contaminants
    The USGS serves the Nation by providing reliable scientific 
information to describe and understand the Earth; minimize loss of life 
and property from natural disasters; manage water, biological, energy, 
and mineral resources; and enhance and protect our quality of life. The 
specific mission of the USGS California Water Science Center is to 
collect, interpret, and provide unbiased and timely scientific 
information of the highest quality for the responsible planning, use, 
and management of California's water resources in cooperation with 
local, State, and other Federal agencies. Scientific issues related to 
the occurrence and movement of groundwater and contaminants, such as 
perchlorate, fall within the scope of the USGS mission.
Perchlorate issues in Rialto Colton and the ``Inland Empire''
    The Rialto-Colton Basin is located in western San Bernardino County 
in California, about 60 miles east of Los Angeles in the upper Santa 
Ana River watershed (the Inland Empire). The Rialto-Colton Basin is 
bounded on the northeast by the Bunker Hill and Lytle Creek Basins and 
on the southwest by the Chino and North Riverside Basins. Groundwater 
presently constitutes about 79 percent of the drinking-water supply in 
the Inland Empire. Perchlorate has been detected in the main water-
producing aquifers within the Rialto-Colton and adjacent basins and has 
contaminated water in more than 20 production wells that supply the 
communities within the Rialto-Colton Basin and surrounding area.
    Perchlorate (ClO<INF>4</INF>) has both synthetic and natural 
sources. Synthetic perchlorate is a residual of the manufacture and use 
of rocket propellants, fireworks, flares and other pyrotechnic devices. 
Minor concentrations of natural perchlorate have been measured in mined 
Chilean nitrate fertilizers. Perchlorate is extremely soluble and is 
carried in groundwater without retardation or absorption. The two major 
sources of synthetic perchlorate in the area are San Bernardino 
County's Mid-Valley Sanitary Landfill and a 160-acre site near the 
landfill. These two sites were used for storage and destruction of 
perchlorate-containing compounds such as explosives, propellants, and 
pyrotechnic devices. Chilean nitrate fertilizer was commonly used in 
the Basin in the early part of the 20th century. In addition, imported 
water from the Colorado River contains measurable perchlorate and also 
may be a source of perchlorate in the Inland Empire. Recent data 
collected by the USGS indicates that low levels of perchlorate have 
accumulated naturally in unsaturated zones in arid and semiarid areas 
of the southwestern United States, such as the Mojave Desert, likely as 
a result of atmospheric deposition.
    Perchlorate contamination is of concern to water managers because 
of the importance of groundwater in this region. Water managers need to 
know the source, fate, and transport of perchlorate within the Rialto-
Colton Basin and adjacent basins in order to effectively mitigate the 
contamination. Major uncertainties facing water managers include: 1) 
the source(s) of perchlorate in specific wells; 2) the hydrologic and 
geologic controls on the migration of perchlorate within the Rialto-
Colton Basin; 3) the effectiveness of the Rialto-Colton Fault as a 
barrier to perchlorate migration from the Rialto Colton basin to the 
adjacent Chino and North Riverside basins; and 4) the potential 
vertical movement of perchlorate through long-screened wells.
What is the USGS doing in the area?
    The USGS has a long history of hydrologic work in the Rialto-Colton 
area and adjacent areas in the Inland Empire going back as far as the 
early 1900s. This work has been updated periodically and collectively 
forms the basis of our scientific understanding of the regional 
hydrogeologic setting, the movement of water within aquifers pumped for 
public supply, and water-quality issues in the area. The USGS operates 
an extensive groundwater-monitoring network providing the public with 
real-time information on water levels and water quality. The USGS has 
developed predictive models in the Rialto-Colton Basin (Woolfenden and 
Kadhim, 1997; Woolfenden and Koczot, 2001) and the adjacent Lytle Creek 
and Bunker Hill groundwater basins (Danskin and Freckleton, 1989; 
Danskin and others, 2006) to assist in the management of the water 
resources in the area. These models are based on the current scientific 
understanding of the geology and hydrology in the area, including the 
areal and vertical extent of aquifers, hydraulic properties, recharge 
and discharge of groundwater, and the interaction between groundwater 
and surface water. Most of the USGS research done in the Inland Empire 
has been in cooperation with local water management agencies such as 
the San Bernardino Valley Municipal Water District under the auspices 
of the USGS Cooperative Water Program. In the past five years, about 70 
percent of the cost of these studies has been borne by local agencies.
    In recent years, the USGS has been working with local water 
agencies to help them understand the sources, distribution, and 
migration of perchlorate in the Inland Empire. A recent study completed 
as part of the USGS Groundwater Ambient Monitoring and Assessment 
(GAMA) Program (Belitz and others, 2003) sampled 99 drinking water 
wells throughout the Inland Empire and identified perchlorate in about 
67 percent of the wells at the reporting level of 0.5 micrograms per 
liter (mg/L); about 10 percent had perchlorate concentrations in excess 
of the California maximum contaminant level of 6 mg/L, but no well had 
concentrations in excess of the EPA health reference level (Kent and 
Belitz, 2009). Woolfenden (2008) used a particle-tracking model to 
determine the susceptibility of an aquifer to perchlorate contamination 
in the Rialto-Colton Basin. Izbicki (2008) collected wellbore flow and 
depth-dependent water-quality data from a public supply well near 
Highland, CA located in the northern part of the Inland Empire. Water-
quality and isotopic data indicated that the source of perchlorate was 
Chilean nitrate fertilizer. Fram and Belitz (2011) have evaluated the 
occurrence of naturally occurring perchlorate in the Rialto-Colton 
Basin and across California.
    The USGS is participating in two studies funded by the Department 
of Defense Environmental Security Technology Certification Program 
(ESTCP). The first study uses state-of-the-art chemical and multiple-
isotope techniques to identify the source of perchlorate within the 
Inland Empire. The second study uses more traditional hydrologic data 
to define water-level contours and groundwater movement within the 
basin. An important component of these studies is to evaluate the 
effect of well-bore flow on the vertical distribution of perchlorate 
within aquifers. A total of 28 wells have been sampled and are being 
analyzed for perchlorate, perchorate isotopes, and other tracers in the 
Rialto-Colton Basin and Chino Basin adjacent to the Rialto-Colton 
Fault. Six wells have been sampled with depth to evaluate well-bore 
flow and changes in chemistry in aquifers with depth across the Rialto-
Colton fault. Data collected in these studies are intended to 1) 
identify the areal and vertical extent of perchlorate contamination 
near the margin plumes in areas having high background perchlorate 
concentrations from fertilizer or other sources, and 2) evaluate the 
potential for water and contaminant movement across the Rialto-Colton 
fault. The studies have identified areas where additional work would be 
beneficial to the understanding of water flow and perchlorate transport 
within the Rialto-Colton basin and adjacent areas.
Rialto Colton Basin, California Water-Resources Study
    The key issues of concern identified in H.R. 200 are:
        A.  The delineation, either horizontally or vertically, of the 
        aquifers in the Basin, including the quantity of water in the 
        aquifers;
        B.  the availability of groundwater resources for human use;
        C.  the salinity of groundwater resources;
        D.  the identification of a recent surge in perchlorate 
        concentrations in groundwater, whether significant sources are 
        being flushed through the vadose zone, or if perchlorate is 
        being remobilized;
        E.  the identification of impacts and extents of all source 
        areas that contribute to the regional plume to be fully 
        characterized;
        F.  the potential of the groundwater resources to recharge;
        G.  the interaction between groundwater and surface water;
        H.  the susceptibility of the aquifers to contamination, 
        including identifying the extent of commingling of plume 
        emanating within surrounding areas in San Bernardino County, 
        California; and
        I.  any other relevant criteria; and
        J.  characterization of surface and bedrock geology, including 
        the effect of the geology on groundwater yield and quality.
    The USGS has the capability to complete a 2-year study to address 
the issues of concern presented in H.R. 200 for the Rialto-Colton 
Basin. The tasks required are within the scope of the USGS mission and 
expertise and could be accomplished under existing authorities.
    H.R. 200 focuses on perchlorate issues in the Rialto-Colton Basin; 
however, perchlorate is a concern throughout the Inland Empire. If 
requested, the USGS could consider options for studying this issue 
throughout the region.
Conclusion
    The USGS has the scientific capacity to address issues of concern 
identified in H.R. 200, a strong working relationship with many of the 
people currently working on groundwater quality issues in California's 
Inland Empire, and a reputation for providing unbiased information.
    The problem of groundwater quality affecting drinking water 
supplies is not unique to communities in Rialto-Colton or the Inland 
Empire. Perchlorate is an issue throughout the southwestern U.S. 
Therefore, methods developed to understand the perchlorate 
contamination in the Rialto-Colton could be useful to water managers in 
other basins.
    The Department notes, however, that the activities called for in 
H.R. 200 are already authorized by existing authorities. Any study 
conducted to fulfill the objectives of the bill would need to compete 
for funding with other Administration priorities.
    Thank you, Chairman McClintock, for the opportunity to present the 
views of the Department on H.R. 200.
References
Belitz, Kenneth, Dubrovsky, N.M., Burow, K.R., Jurgens, Bryant, and 
        Johnson, Tyler, 2003, Framework for a ground-water quality 
        monitoring and assessment program for California: U.S. 
        Geological Survey Water Resources Investigations Report 03-
        4166.
Belitz, Kenneth, Hamlin, S.N., Burton, C.A., Kent, R.H., Fay, R.G., and 
        Johnson, Tyler, 2004, Water Quality in the Santa Ana Basin, 
        California: U.S. Geological Survey Circular 1238.
Danskin, W.R, and Freckleton, J.R., 1989, Ground-water-flow modeling 
        and optimization techniques applied to high-ground-water 
        problems in San Bernardino, California: U.S. Geological Survey 
        Open File Report 89-75.
Danskin, W.R., McPherson, K.R., and Woolfenden, L.R., 2006, Hydrology, 
        description of computer models and evaluation of water-
        management alternatives in the San Bernardino area, California: 
        U.S. Geological Survey Open File Report 2005-1278.
Fram, M.S., and Belitz, K., 2011, Probability of detecting perchlorate 
        under natural conditions in deep groundwater in California and 
        the southwestern United States, Environmental Science and 
        Technology. Vol. 45, no. 4, pp. 1271-1277.
Izbicki, J.A., 2008, Determining the source of contamination to long-
        screened wells: East Valley Water District 2008 Water Quality 
        Conference, October 2008.
Kent, Robert, and Belitz, Kenneth, 2009, Ground-water quality data in 
        the Upper Santa Ana Watershed Study Unit, November 2006 to 
        March 2007: Results from the California GAMA Program: U.S. 
        Geological Survey Data Series 404.
Woolfenden, L.R., and Kadhim, Dina, 1997, Geohydrology and water 
        chemistry in the vicinity of the Rialto-Colton Basin, San 
        Bernardino County, California: U.S. Geological Survey Water 
        Resources Investigations Report 97-4012.
Woolfenden, L.R., and Koczot, K.M., 2001, Numerical simulation of 
        ground-water flow and assessment of the effects of artificial 
        recharge in the Rialto-Colton Basin, San Bernardino County, 
        California: U.S. Geological Survey Water Resources 
        Investigations Report 00-4243.
Woolfenden, L.R., 2008, Aquifer susceptibility to perchlorate 
        contamination in a highly-urbanized environment: IAHS Publ 324, 
        pp. 156-163.

                                 <all>

</pre></body></html>
